<html>
<title> - BREAKING THE IRAN, NORTH KOREA, AND SYRIA NEXUS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                    BREAKING THE IRAN, NORTH KOREA, 
                            AND SYRIA NEXUS

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                AND THE

         SUBCOMMITTEE ON TERRORISM, NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2013

                               __________

                           Serial No. 113-12

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
80-364                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d3b4a3bc93b0a6a0a7bbb6bfa3fdb0bcbefd">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois             BRIAN HIGGINS, New York
TOM COTTON, Arkansas                 DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas            ALAN GRAYSON, Florida
RON DeSANTIS, Florida                JUAN VARGAS, California
TREY RADEL, Florida                  BRADLEY S. SCHNEIDER, Illinois
DOUG COLLINS, Georgia                JOSEPH P. KENNEDY III, 
MARK MEADOWS, North Carolina             Massachusetts
TED S. YOHO, Florida                 GRACE MENG, New York
LUKE MESSER, Indiana                 LOIS FRANKEL, Florida
                  Subcommittee on Asia and the Pacific

                      STEVE CHABOT, Ohio, Chairman
DANA ROHRABACHER, California         ENI F.H. FALEOMAVAEGA, American 
MATT SALMON, Arizona                     Samoa
MO BROOKS, Alabama                   AMI BERA, California
GEORGE HOLDING, North Carolina       TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            BRAD SHERMAN, California
DOUG COLLINS, Georgia                GERALD E. CONNOLLY, Virginia
LUKE MESSER, Indiana                 WILLIAM KEATING, Massachusetts

                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           BRAD SHERMAN, California
ADAM KINZINGER, Illinois             ALAN S. LOWENTHAL, California
MO BROOKS, Alabama                   JOAQUIN CASTRO, Texas
TOM COTTON, Arkansas                 JUAN VARGAS, California
PAUL COOK, California                BRADLEY S. SCHNEIDER, Illinois
SCOTT PERRY, Pennsylvania            JOSEPH P. KENNEDY III, 
TED S. YOHO, Florida                     Massachusetts


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable R. James Woolsey, chairman, Foundation for Defense 
  of Democracies (former Director of the Central Intelligence 
  Agency)........................................................     7
Mr. Henry D. Sokolski, executive director, Nonproliferation 
  Policy Education Center (former Deputy for Nonproliferation 
  Policy, U.S. Department of Defense)............................    22
Mr. David Albright, founder and president, Institute for Science 
  and International Security.....................................    31
Ray Takeyh, Ph.D., senior fellow for Middle Eastern Studies, 
  Council on Foreign Relations...................................    39

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable R. James Woolsey: Prepared statement...............     9
Mr. Henry D. Sokolski: Prepared statement........................    24
Mr. David Albright: Prepared statement...........................    33
Ray Takeyh, Ph.D.: Prepared statement............................    41

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Bradley S. Schneider, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    77
Mr. Henry D. Sokolski: Material submitted for the record.........    79


            BREAKING THE IRAN, NORTH KOREA, AND SYRIA NEXUS

                              ----------                              


                        THURSDAY, APRIL 11, 2013

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

               Subcommittee on Asia and the Pacific, and

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 2:30 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. 
After recognizing myself, then Chairman Chabot, Chairman Poe, 
Ranking Member Deutch, Ranking Member Faleomavaega, and Ranking 
Member Sherman will each be recognized for 4 minutes for their 
opening statements. We will then hear from our distinguished 
panel of witnesses, and without objection the witnesses 
prepared statements will be made a part of the record, and 
members may have 5 days to insert statements and questions for 
the record subject to the length limitation and the rules.
    The Chair now recognizes herself for 4 minutes. As we 
assess the growing threats emanating from Iran, Syria, and 
North Korea, this timely hearing will examine the options 
available to confront these regimes. We know Assad has a 
chemical weapon stockpile and we know that it once had a 
nuclear reactor built with the assistance of North Korea until 
it was destroyed supposedly by an Israeli airstrike. The future 
of Assad may be uncertain, but what is assured is that we must 
not allow his chemical weapons to fall into the wrong hands. 
Syria's future is of vital U.S. national security interest, but 
those interests are undermined when reports surface that Iran 
has been sending weapons and fighters to aid Assad in this 
battle.
    Iran's Quds Force and Hezbollah operatives are working to 
ensure that Assad remains in power which iterates our need to 
take a strong position against the Iranian regime. The latest 
round of P5+1 negotiations failed to put a halt on Iran's 
nuclear program as Iran announced several new nuclear related 
projects. It is almost as if we refuse to learn from our 
mistakes.
    In North Korea, Pyongyang has written the playbook on how 
to proceed with a nuclear program while still gaining 
concessions from the United States. In 2008, the Bush 
administration erred in taking North Korea off the State 
Sponsors of Terrorism list. This mistake must be corrected by 
relisting North Korea for its December 2012 launch of a long-
range rocket followed up with Pyongyang's third successful 
nuclear detonation this past February. Since then, Kim Jong-un 
has ramped up the rhetoric and threatened to pull out of the 
1953 armistice agreement with South Korea, destroy U.S. 
military bases in Japan and Guam, and launch nuclear war 
against the United States and our ally South Korea.
    The U.S. must demand that Iran, Syria, and North Korea 
allow IAEA inspectors to immediately inspect and have access to 
all nuclear facilities and stockpiles to ensure their safety. 
If these three rogue regimes, this triangle of proliferation, 
are allowed to continue on their current paths, it will lead to 
a global nuclear arms race. To counter this threat I have 
introduced, along with my colleague Congressman Brad Sherman, 
H.R. 893, the Iran, North Korea, and Syria Nonproliferation 
Accountability Act. This bill expands on Iranian sanctions from 
last year and makes them applicable to North Korea and Syria 
while also enhancing them. Cutting off the economic lifeline to 
these regimes is imperative, but we must also counter their 
efforts to proliferate technology and scientific knowledge to 
advance their WMD ambitions. Our bill prohibits U.S. assistance 
to any foreign government that provides assistance to Iran, 
North Korea, and Syria, and will increase sanctions on any 
person or entity transferring goods, services or technology for 
the chemical, biological, or advanced conventional weapons 
program of Iran, North Korea, and Syria.
    History has proven that diplomatic negotiations with these 
regimes have been a waste of time. The administration must 
fully and vigorously enforce sanctions against this triangle of 
proliferation and have a coherent and coordinated strategy to 
counter these threats. Thank you.
    And with that I'm proud to yield to our ranking member, 
Congressman Ted Deutch.
    Mr. Deutch. Thank you, Madam Chairman, and thanks to our 
witnesses for joining us today. As Iran continues to grow 
further isolated from the international community, it should be 
no surprise that this regime has sought to pursue even closer 
relations with fellow rogue regimes, Syria and North Korea. The 
mutually beneficial Iran-North Korea relationship is driven 
largely by Iran's desire for North Korean enrichment technology 
and North Korea's need for Iranian missile expertise.
    But there remains a stark difference in the foreign policy 
agenda of these two regimes. North Korea's leadership has 
seemingly accepted its international isolation and uses this 
lack of transparency to brutally control its own people. And 
Iran wants international recognition, participates in 
multilateral organizations, and seeks influence over its 
neighbors and any like-minded leaders it can find around the 
world. So while Iran's relationship with North Korea appears to 
be pragmatic, Iran's relationship with Syria is strategic.
    In keeping Iran's regional aspirations in mind, it is clear 
that the regime's chief foreign policy objective lies in saving 
the Assad regime or at least some version of a Shi'ite 
controlled territory. The removal of Assad would deal a 
devastating blow to the Iranian regime's ability to get heavy 
weaponry into Lebanon and into Gaza. It has been reported that 
through the end of 2012 Iran had given Assad $10 billion in 
support. In March 2011, a weapon shipment from Iran to Syria 
was intercepted in Turkey, and according to one report boxes on 
the plane contained rocket launchers, mortars, Kalashnikov 
rifles and ammunition. And that was only a few months after the 
fighting had begun. One can only imagine what else has made its 
way into Syria over the past 2 years. And we know that Iran has 
sent its elite Quds Force to train and advise Syrian forces. A 
senior Iranian Revolutionary Guard Corps commander was killed 
near the Lebanon-Syria border in February. There are also 
reports that Iran is raising militias in Shi'ite strongholds in 
preparation for a Shi'ite enclave in post-Assad Syria.
    Iran's brazen attempt to shape the Syrian conflict risks 
broader regional security and stability as Saudi Arabia, Qatar, 
Jordan, and other Sunni states are backing various factions 
waging war against the regime. Now Iraqi-Shi'ite militants have 
acknowledged that they too have joined the fight alongside 
Assad in Syria. These are the same militant groups that 
repeatedly waged war on American troops in Iraq.
    Last week we sent a letter to Prime Minister Maliki asking 
him to inspect Iranian planes suspected of carrying weapons 
through Iraqi airspace en route to Syria. Iraqi Government 
officials have said that they have no interest in arming either 
side, but this requires actively preventing weapons from 
flowing to Assad's forces. Now Maliki's op-ed in the Washington 
Post this week affirmed his desire to have a strong 
relationship with the United States. And as the U.S. showed our 
commitment to Iraq's security last October by finalizing a deal 
to provide 18 more F-16s to Iraq, we also need cooperation from 
our partners to help bring an end to the Syrian conflict. So 
the question remains, how far is the Iranian regime willing to 
go to protect its ally and further its desire to raise Shi'ite 
militants through the Middle East? As Iran's economy is 
suffering under devastating economic sanctions, how much longer 
can it continue to sustain Assad's forces financially?
    As we examine these issues today, we must focus on the 
driving factors behind Iran's relationships with these rogue 
regimes, and how U.S. policy toward these regimes can serve our 
national security and the security of our allies in the Middle 
East and Asia. Again I thank my friend, the chairwoman, and I 
yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch. And now 
I am pleased to recognize subcommittee chair Mr. Chabot of 
Ohio.
    Mr. Chabot. Thank you, Madam Chair. I am pleased in joining 
you and Chairman Poe and the others and our colleagues on the 
committee in holding this hearing to address a triple threat 
that is becoming more dangerous as each day passes. The 
individual threats that North Korea, Iran, and Syria pose to 
the United States and the rest of the international community 
could easily consume an entire day of discussion. But today we 
will look at the linkage of their illicit activities and 
ongoing cooperation with each other which has not received the 
amount of attention it deserves.
    Of late, the world has been witnessing an escalation of 
bellicose rhetoric and reckless actions from an inexperienced 
and imprudent third-generation Kim. It would be unwise to not 
take North Korea's confrontational behavior seriously. While 
most believe that North Korea is unlikely to initiate a 
suicidal all-out war, it seems to again be playing the threat 
game to wring concessions from an uneasy international 
community. However, unlike his father and grandfather, young 
Kim does not seem to understand how far is too far.
    North Korea's threats extend far beyond the Korean 
Peninsula and Asian continent. North Korea has positioned 
itself squarely within the circle of rogue regimes, a one-stop 
shop for missile and nuclear materials and technology. North 
Korea prides itself on providing whatever its very few friends 
need as it gets oil, cash, and weapons essential to maintaining 
the power of the Kim regime. It does this with the likes of 
Iran and Syria to circumvent international sanctions and United 
Nations Security Council resolutions.
    Other countries, among them Egypt, Libya, Yemen, Pakistan, 
and Iraq have also been patrons of North Korea in black market 
weapons deals. It is no secret that the Syrian nuclear facility 
destroyed by Israel in 2007 was built with the assistance of 
North Korea and modeled after North Korea's Yongbyon nuclear 
reactor. Even more threatening is the long and enduring 
relationship between North Korea and Iran that began in the 
1980s with the sale of Scud missiles to supply Iran's ballistic 
missile program.
    Over the course of the past few decades, the linkage has 
not received the attention it deserved, perhaps until now that 
is. Following the test of North Korea's third nuclear bomb in 
February, it was suggested that Iran had in some manner 
sponsored the nuclear weapon. This followed a Scientific and 
Technology Accord that North Korea and Iran signed in September 
2012, which is aimed at ``strengthening bilateral ties, 
expanding cooperation and boosting the anti-hegemonic front.'' 
The nuclear test also underlined another harsh reality--that 
North Korea's weapons capabilities are more advanced than 
Iran's.
    This highlights the tremendous failure of the Obama 
administration's policy, or lack thereof, for dealing with 
North Korea today. U.S. policies toward Iran have not been any 
more successful, unfortunately. Despite numerous overtures from 
the U.S. Government to the mullahs in Iran, they are closer 
than ever to obtaining nuclear weapons. It is hardly a 
coincidence that while North Korea is creating such 
international anxiety, Iran entered into another round of talks 
with world leaders to supposedly limit its nuclear program that 
ends in a stalemate and it is followed by Iran's announcement 
of two nuclear related projects that will expand its ability to 
extract and process uranium. In the face of economic sanctions 
against its own country, Iran seems to be flexing its muscles 
through North Korea.
    This is all occurring as the situation in Syria takes on 
another frightening turn into the throes of civil war. A war 
that Iran wants Syrian dictator Assad to win because his 
removal would be a divisive setback for its own strategic 
future. I will yield back the remainder of my time and I look 
forward to this hearing. Thank you for calling it, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman. And 
now we will hear from Ranking Member Brad Sherman of 
California.
    Mr. Sherman. Thank you. Cooperation between Iran, Syria, 
and North Korea has long been a problem. In 2007, Israel 
destroyed a nuclear facility in Syria that had been built not 
only with help from North Korea, but help from Iran as well. 
Last month I joined the chairwoman in reintroducing the Iran, 
North Korea, and Syria Nonproliferation and Modernization Act. 
This was quite similar to the bill we had introduced 2 years 
previous that passed the House 418-2, and like so many good 
bills, died in the Senate without action. Hopefully that will 
not be its fate this year.
    That bill contained provisions that would sanction 
countries that provide Iran, North Korea, or Syria with the 
technology to mine and mill uranium. It would also prohibit 
assistance to any foreign government that has provided 
assistance to Iran, North Korea, and Syria or has failed to 
prevent individuals or entities under its sovereignty from 
aiding those countries' proliferation activities. Our bill 
would also sanction any entity that is selling conventional 
military goods or technologies to Iran, North Korea, or Syria 
by freezing property and denying access to the U.S. banking 
system.
    As to the talks in Kazakhstan, I think Mr. Chabot was 
right. Once again a round of talks followed by an acceleration 
of Iran's nuclear program, now complemented by its renewed 
efforts at mining and milling and creating yellowcake. As to 
Syria, Hezbollah has been an active part of Assad's fighting 
forces. Tehran has been sending commanders and fighters from 
both Hezbollah and the Iran Revolutionary Guard Corps to Syria 
as well as arms. Israel's military intelligence chief has 
claimed that Iran and Hezbollah have built a 50,000-strong 
parallel force in Syria to help the Assad regime. The fall of 
the Assad regime would obviously be a blow not only to Iran, 
but also and especially to Hezbollah. Hopefully we will see the 
end of that regime, but we must note that Syria has massive 
stockpiles of chemical weapons including sarin and VX gas. 
Assad may use that against his own people, and that is of 
course a red line for the United States, or transfer those 
weapons to Hezbollah or Iran.
    One of the issues that is before the United States is 
whether to license the repair of old Boeing jets owned by Air 
Iran. Some argue that it is humanitarian to fix these 
supposedly civilian aircraft. First of all, the aircraft should 
be grounded until Iran grounds its nuclear program. But as to 
the humanitarian aspect, in May 2011 the United Nations Report 
revealed that North Korea and Iran had been routinely sharing 
prohibited ballistic missile technology with the help of Air 
Iran flights into an unnamed third country spelled, C-H-I-N-A. 
Now we see Iran using supposedly civilian aircraft of Air Iran 
to airlift arms, weapons and murderers to Syria. So those who 
think that fixing these planes is the humanitarian thing to do 
should talk to the bereaved families of the victims of the Iran 
Revolutionary Guard Corps fighting in Syria.
    We are dealing with three evil countries or at least evil 
governments, but they are at very different stages. One seems 
to be on the ropes. A second seems to be dedicated only to its 
own survival. And that is why I focus mostly on Iran because it 
has the ambition to influence events around the world, and I 
think poses the greatest threat to the United States. I yield 
back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Sherman. And now 
we will hear from subcommittee Chairman Poe of Texas.
    Mr. Poe. Thank you, Madam Chairman. There may be a chart on 
the screen. I want to hold up the one I have. A little history 
about how nuclear weapons have proliferated in our lifetime.
    First, the Soviets helped the Chinese and later the 
Russians assist the North Koreans in nuclear proliferation. 
China also helps the North Koreans, and China helps Pakistan. 
Meanwhile, the North Koreans assist the Iranian nuclear 
program, and while they are doing that they assist the 
Pakistanis in a missile program in exchange for nuclear 
technology. The Pakistanis not only assist the North Koreans, 
but they help the Iranians as well. And then of course Iran 
assists Syria in chemical and biological weapons programs. They 
are all very busy bees helping each other out getting weapons 
they wish to probably use in the future. This is a serious 
threat to the world, this proliferation, and it is important 
that we recognize the truth for what it is. And Syria, if Assad 
doesn't get chemical weapons and use them on his own population 
they could wind up in the hands of the terrorists like al-
Qaeda's Al Nusra Front, one of the most heavily armed and 
effective groups in Syria.
    In a hearing I chaired last month along with Ranking Member 
Sherman, we looked into the terror Iran is causing around the 
world through the Iranian Revolutionary Guard Corps and its 
proxy Hezbollah. And we found that there is narcotrafficking in 
South America, there is support for Assad in Syria, rebels in 
Yemen, terrorist plots across Europe and Asia, and money 
laundering on almost every continent. It will only get worse 
should Iran think it has the cover of nuclear weapons to 
protect itself.
    Back when I was on the bench as a judge, I knew that it was 
important that we don't reward people for bad behavior. There 
should be consequences. With both North Korea and Iran, the 
United States and the international community should make it 
harder not easier for them to continue their march toward 
nuclear weapons. I don't believe we should give North Korea any 
more aid. They took our food aid in the past and still let 
their people go hungry while the regime enjoyed luxuries of 
life and expanded its weapons program. The danger is not just 
about Iran and North Korea getting nukes, but the sharing and 
selling of that technology with other bad actors including 
state and sub-state actors.
    We should increase our sanctions to go after illicit 
transactions, weapons smuggling, and nuclear technology 
transfers. We should not give up on demands that actually show 
the stopping of a nuclear program, such as giving up all 
enriched uranium and stopping all centrifuges. And I would ask 
unanimous consent to put this chart into the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Poe. And I yield back.
    Ms. Ros-Lehtinen. Thank you. Thank you so much, Congressman 
Poe. Thank you, Mr. Chairman, for that presentation. I am going 
to introduce our witnesses now, and I would like to first 
apologize. There are a lot of other committees going on at this 
time, and subcommittees, and some of them have markups. So you 
will see our members coming and going, and it is not indicative 
of their level of interest on this topic. And number two, 
unfortunately I have to leave early at 3:10 to catch a flight 
for a family matter, so you will excuse me as well.
    But the Chair is now pleased to welcome our witnesses for 
this afternoon. We will first hear from Ambassador James 
Woolsey who is the chairman of the Foundation for Defense of 
Democracies, and a co-founder of the United States Energy 
Security Council. Prior to that Ambassador Woolsey has had a 
long and distinguished career in government service having 
previously held Presidential appointments in four 
administrations, most recently as Director of the CIA from '93 
to '95. Ambassador Woolsey has previously served as the 
Annenberg Distinguished Fellow at the Hoover Institution at 
Stanford, and in 2010 was a senior fellow at Yale at the 
university's Jackson Institute for Global Affairs. Welcome, it 
is always a pleasure.
    Next, we will be hearing from Henry Sokolski, executive 
director of the Nonproliferation Policy Education Center, a 
nonprofit organization founded to promote a better 
understanding of strategic weapons proliferation issues. He 
also currently serves as an adjunct professor at the Institute 
of World Politics, and previously served as Deputy for 
Nonproliferation Policy in the Department of Defense for which 
he received a medal for outstanding public service from then 
Secretary of Defense Dick Cheney. He has also authored and 
edited a number of books and publications on proliferation. 
Welcome, Henry.
    And third, David Albright is a physicist and a founder and 
president of the nonprofit Institute for Science and 
International Security. Mr. Albright has written numerous 
assessments on secret nuclear weapons programs throughout the 
world and has co-authored several books on the subject. His 
2010 book, ``Pedaling Peril: How the Secret Nuclear Trade Arms 
America's Enemies,'' was listed by the Atlantic as one of the 
best foreign affairs books of 2010.
    And finally, our subcommittees welcome Dr. Ray Takeyh, 
senior fellow for Middle East Studies at the Council on Foreign 
Relations where he specializes in Iran, political reform in the 
Middle East, and Islamist movements and parties. He is 
currently an adjunct professor at Georgetown University and has 
previously taught at the National War College, Yale, and the 
University of California at Berkeley. Dr. Takeyh previously 
served as a senior advisor on Iran at the Department of State, 
and is the author of several books and articles in his area of 
specialty.
    I would like to kindly remind our witnesses that your 
testimony will be made a part of the record without objection, 
and to please limit your verbal testimony to no more than 5 
minutes. And we will begin with you, Ambassador Woolsey. 
Welcome.

    STATEMENT OF THE HONORABLE R. JAMES WOOLSEY, CHAIRMAN, 
 FOUNDATION FOR DEFENSE OF DEMOCRACIES (FORMER DIRECTOR OF THE 
                  CENTRAL INTELLIGENCE AGENCY)

    Mr. Woolsey. Thank you very much, Madam Chairwoman. I want 
to cut short the analysis of the problem. I think most of us 
understand the nature of these three regimes, and the fact of 
their interaction particularly with respect to nuclear weapons 
and ballistic missiles. North Korea helps develop Iranian and 
Syrian ballistic missiles. North Korea and Iran effectively 
have a joint missile program together. Iran financed the Syrian 
nuclear program including particularly the reactor that was 
destroyed by, probably, the Israeli Air Force. And the whole 
situation is one in which these three countries have a very 
stressing and negative effect on a full scope of world affairs, 
but it centers in many ways on their approach toward 
proliferating both ballistic missiles and nuclear weapons.
    We need to remember that in 1957 when the Soviets first 
launched a basketball-size satellite, the United States went to 
general quarters. Sputnik changed a lot about the United 
States. And one of the reasons was because if you can put 
something into orbit, you can get to the other side of the 
earth. And you may not get to the other side of the earth very 
accurately, but you can get there, and then you can work on the 
accuracy. So once a nuclear power has ballistic missiles of 
substantial range, particularly once it can orbit anything, we 
are not in the early stages of a problem, we are very, very far 
into the problem.
    I think it is important to focus on what we might be able 
to do in terms of policy. I would make three points. First, our 
primary and overall goal should be to break, literally destroy, 
this axis. Not destroy the countries, but destroy the 
interaction between these three states and their offshoots in 
the terrorist world--Hezbollah, Hamas, and others. To do that I 
think we need to do three things. First of all, we need to 
vigorously support non-Islamist opposition. I understand the 
problem about putting boots on the ground, but at the very 
least we can speak up with respect to the behavior of these 
states. President Reagan struck a huge blow for freedom when he 
told Gorbachev to tear down the Berlin Wall. And we can, I 
think, enhance the ability internally of those in Iran and 
Syria and to some extent maybe even in North Korea to resist if 
the American Government will take a brave and solid stance. So 
far we have not done that. Although we told Mubarak to leave 
after 10 days of demonstrations, we have well over 2 years now 
in Syria, with tens of thousands of deaths, barely done a 
thing. I think that air power use is, under this circumstance, 
reasonable particularly for a no-fly zone. But even without the 
use of force we could do a great deal more in terms of 
training, assistance, and helping the resistance. I do think it 
is absolutely vital that we be in Syria somewhere, somehow, on 
the ground and able to take custody of those chemical weapons 
immediately upon anything occurring which could put them at 
loose in the black market or Syria fracturing or anything else.
    Secondly, I think we need very strong financial sanctions. 
I would simply endorse the chairman's bill and say that this is 
vital. There are more than 12 banks in Iran. We shouldn't be 
dealing with just 12 banks. We should be conducting an all-out 
boycott of the country's products and their commercial efforts. 
And that would require a good deal of change in our attitudes, 
but I think it is time now to start talking about things like 
near total embargoes, excluding only humanitarian aid and the 
rest.
    And then finally, we need an effective anti-ballistic 
missile program in the United States. We do not have one. We 
especially don't have one that would deal with a so-called Scud 
in a bucket. That is, a Scud fired from a fishing boat. Scuds 
are all over the world including all of these three states. One 
of these states has nuclear weapons, another is about to get 
them, and I think that that will be a major test. We have to be 
able to deal with electromagnetic pulse, not just with accurate 
weapons. Thank you, Ms. Chairman.
    [The prepared statement of Mr. Woolsey follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you. Thank you very much. Excellent 
testimony. Mr. Sokolski?

    STATEMENT OF MR. HENRY D. SOKOLSKI, EXECUTIVE DIRECTOR, 
  NONPROLIFERATION POLICY EDUCATION CENTER (FORMER DEPUTY FOR 
      NONPROLIFERATION POLICY, U.S. DEPARTMENT OF DEFENSE)

    Mr. Sokolski. Thank you, Madam Chairman, for inviting me 
here today to discuss some principles by which the U.S. should 
proceed against Syrian-North Korean-Iranian strategic weapons 
collaboration. I think the first and most important principle 
may be the most obvious but hasn't really been focused on 
enough and that is, less is better. Although three doesn't 
really sound like a large number, Iran, North Korea, and Syria, 
along with their key foreign supporters, present a set of 
diplomatic intelligence and military challenges that is 
exponentially greater than dealing with just one or two 
parties.
    I say this based on my own experience in the Pentagon 
dealing with the Condor Program versus dealing with a single 
program for missiles that had to do with South Africa. Believe 
me, the latter was a lot easier to deal with. Certainly the 
transition of just one of these states to moderate, self-
government would have significant positive nonproliferation 
knock-on effects. And in specific, the challenges and 
uncertainties of trying to neutralize the remaining 
proliferators would fall dramatically.
    As for Syria, it is unclear what awaits us if Assad's rule 
should come to an end. Some of his arsenal may fall into bad 
hands, however, I think these risks must be balanced against 
the near certainty that if Assad were to stay in power, he 
would restart his nuclear program, which brings me to the next 
important principle. It is critical that we avoid conceding per 
se rights to these or any other state engaged in dangerous 
nuclear and aerospace activities. For reasons of convenience, I 
believe our Government and most of our allies have gotten into 
the lazy habit of explaining the Nuclear Nonproliferation 
Treaty as a deal that demands and supplies three things 
equally--nonproliferation safeguards, nuclear disarmament, and 
the sharing of peaceful nuclear technology.
    This breezy ``Three Pillars of the NPT'' pitch, although 
popular, lacks historical or legal substance. It also defies 
common sense. While nuclear disarmament and the sharing of 
peaceful nuclear technology are mentioned in the NPT, they play 
only a secondary supporting role to the treaty's primary aim 
that is and must be nuclear nonproliferation, not nuclear 
technology sharing or global disarmament. It would be helpful 
if Congress could get State to heel on this point.
    I note that the chairman in the past has held hearings on 
this, but it has been about a decade. It may be time to come 
back to this topic again. Some experts, after all, are still 
recommending that we concede Iran's right to enrich uranium in 
exchange for merely limiting enrichment to levels of about 20 
percent. Yet, what is most worrisome about Iran's program is 
the increasing number of centrifuges and our inability to 
secure timely warning of possible military diversions from 
nuclear fuel making, not the amount of 20 percent of enriched 
uranium it has on hand. Certainly, if Washington were to 
concede Tehran's right to enrich, it would make preventing Iran 
from breaking out and acquiring nuclear arms far more 
difficult. It also would make resisting the nuclear fuel making 
demands of Syria, Saudi Arabia, Turkey, Egypt, and every other 
nation that might want it far more challenging.
    Similarly, while we should close ranks with South Korea 
against North Korea, it would be a mistake in our current 
nuclear cooperative negotiations to allow Seoul to make nuclear 
fuel from U.S. nuclear materials or to allow it to prepare or 
condition U.S.-origin spent fuel for this purpose. Such fuel 
making is not only unnecessary and uneconomical, it risks 
encouraging Japan to take the fateful step of massively 
increasing its stockpile of nuclear explosive plutonium by 
opening a very uneconomical reprocessing plant at Rokkasho. In 
fact, Parliamentarians in both states claim large-scale 
reprocessing would serve a desirable nuclear weapons option 
purpose. Any move to actually produce more plutonium-based 
fuels in either South Korea or Japan, though, would inevitably 
prompt China to up its nuclear ante, and so dramatically 
increase the nuclear threats already facing us in this region.
    Finally, a word on putting North Korea back on the list of 
terrorist states. I think this would help assure Pyongyang's 
financial dealings are sanctioned. The one thing Pyongyang 
needs most to keep its Communist party members faithful is hard 
currency. It is kind of like organized crime. By the way, this 
is something Beijing has never given Pyongyang. To secure this 
cash, Pyongyang used counterfeiting, drug trade, gambling 
establishments in Japan and illicit arm sales.
    But to hold and move its cash from these activities, North 
Korea also needs legitimate banks. By the way, this is a point 
that I raised in a piece I wrote a decade ago and it was acted 
on. In fact, it is why North Korea protested so loudly in 2005 
when U.S. officials sanctioned Banco Delta Asia, even though 
the amount frozen--$24 million--was nominal. This action also 
got China's attention. It was deathly afraid that its own banks 
would be targeted next. Actually, that is a pretty good thing 
that they would be afraid. Unfortunately, the U.S. dropped this 
sanctioning effort and removed North Korea from the list of 
terrorist states in 2007. To increase pressure on North Korea 
and China without harming innocents, I think it would be useful 
to revisit this decision as well as enforcing U.S. and existing 
allied nations' laws against the illicit ways in which North 
Korea raises cash. By the way, this one doesn't require getting 
a lot of countries to agree, and it only targets the Communist 
party faithful in North Korea, which is exactly where you want 
to place the pressure.
    [The prepared statement of Mr. Sokolski follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, sir. And the Chair 
would like to, before we recognize Mr. Albright, ask if my 
Florida colleague, Dr. Ted Yoho, would take over the chair. I 
would be greatly honored, and you can steal some of my best 
questions here from the great mind of Mr. Acevedo. Thank you so 
very much. And Mr. Albright, you will be recognized as soon as 
Dr. Yoho takes the chair. Thank you.
    Mr. Yoho [presiding]. Okay, what an honor. You were next, 
right, Mr. Albright? Go ahead.

    STATEMENT OF MR. DAVID ALBRIGHT, FOUNDER AND PRESIDENT, 
        INSTITUTE FOR SCIENCE AND INTERNATIONAL SECURITY

    Mr. Albright. Well, thank you very much for the opportunity 
to testify today. As it has been made clear, North Korea is 
capable of significant acts of nuclear proliferation. As was 
pointed out, Syria bought a reactor and assistance from North 
Korea, and North Korea also likely assisted in creating the 
capabilities and facilities to produce fuel for this reactor 
which in normal operation makes weapon-grade plutonium. Now 
given the ongoing internal conflicts, Syria is unlikely to be 
pursuing a secret nuclear program at this time. However, the 
Financial Times raised concerns about the security of upwards 
of 50 tons of highly purified natural uranium alleged to be in 
Syria that was designed for use in the Al Kibar reactor. Now, 
of course this material would need further enrichment before it 
could be used in a weapon, and it does not pose nearly the 
risks of Syria's chemical weapons stockpile. However, this 
uranium stock could end up in the hands of terrorists who may 
wish to sell it on the black market, and this material may also 
end up in undeclared programs of other states such as Iran.
    Unfortunately, North Korea and Iran could mutually benefit 
from collaboration on their respective nuclear programs, as I 
think other witnesses and members have pointed out. We have 
seen reports that North Korea provided Iran with nuclear 
weapons data, and North Korea also appears to have deployed 
centrifuges based on Pakistan's P-2 centrifuge which is also 
the basis for Iran's more modern IR-2m centrifuges. North Korea 
just announced that it plans to use its centrifuge facility for 
making enriched uranium for nuclear weapons, and North Korea 
knowledge could potentially help Iran to overcome significant 
technical challenges that have plagued its centrifuge program. 
Furthermore, if North Korea builds devices using weapon-grade 
uranium, this expertise could benefit Iran should Iran decide 
to build nuclear weapons.
    North Korea has extensive experience with miniaturization 
of nuclear weapons for its plutonium bomb, and this kind of 
information would be immensely useful to Iran. North Korea and 
Iran may also assist one another in obtaining nuclear and 
missile dual-use goods and materials for their sanctioned 
programs, and Syria may have earlier been involved in such 
illicit procurement efforts. Now of course Iran and North Korea 
also illicitly procure their own goods for their programs. They 
cannot manufacture many of these goods indigenously unless they 
are dependent on buying them from suppliers in high technology 
companies or via middle men in trading companies located in 
countries of trafficking concern. In their smuggling efforts, 
Iran and North Korea use Chinese private suppliers as direct 
sources for goods or as platforms to buy high-tech, high 
quality U.S., European, and Japanese goods. In the latter case, 
these goods are transshipped through China to Iran or North 
Korea.
    So what is the U.S. going to do? I would like to make just 
a few points, one of which is to talk about China. China 
remains a key illicit trading and transshipment point for these 
trafficking efforts because of its failure to adequately 
implement U.N. Security Council sanctions resolutions and 
enforce its own trade controls. To encourage China to take 
action on Iran, President Obama should designate it a 
``Destination of Diversion Concern'' under CISADA unless it 
commits to better enforcement within a given time period, and 
such a designation would require special licenses to export 
certain sensitive dual-use goods to China and could have 
significant and undesirable economic consequences for China. 
However, its cooperation on this would eliminate the imposition 
of these licensing requirements.
    Now CISADA on this issue was a very good idea and it needs 
to be broadened, and Congress should pass new legislation 
giving Congress the authority to apply this approach to North 
Korea and perhaps other countries. Others have talked about 
stopping the money flows that pay for nuclear and missile 
related goods, and this is a very important part of this 
effort. And I think it is time to start taking the steps toward 
designating North Korea a ``jurisdiction of primary money 
laundering concern'' under Section 311 of the Patriot Act. And 
while it may not be necessary to do it all at once, I think the 
process needs to be started and to create a basis for more 
intensive sanctions on North Korea.
    Also the threat posed by Syria's nuclear missile 
proliferation is now rooted in its internal instability, and 
the United States therefore must seek solutions that prevent 
the leakage of nuclear assets within or out of Syria, and in 
the longer term root out and dismantle weapons of mass 
destruction programs in Syria. And as is being done, the 
facilities and sites need to be carefully monitored, and as 
other witnesses have talked about, the United States needs to 
be prepared to act quickly to recover or to seize any assets 
that are posing a risk.
    As we seek to engage in negotiations for long-term 
solutions with Iran and North Korea, and I do hope that at some 
point that we can have those, we must at this same point be 
pragmatic about the need to exert pressure and implement 
measures to detect and prevent the improvement of these 
countries' nuclear and missile capabilities, and in the case of 
Iran, inhibit its growing ability to break out. I would note 
though that in these negotiations it is very important that the 
sanctions regimes that are being created should not be in any 
way relaxed absent significant concessions.
    [The prepared statement of Mr. Albright follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Yoho. Mr. Albright, I am going to ask you to hold off 
now, and I appreciate your comments----
    Mr. Albright. Okay.
    Mr. Yoho [continuing]. So we can move on. But I want to 
come back to that because that is something that we definitely 
need to talk to.
    Dr. Takeyh, if you would go ahead I would like to hear what 
you have to say. Thank you.

   STATEMENT OF RAY TAKEYH, PH.D., SENIOR FELLOW FOR MIDDLE 
         EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Takeyh. Thank you very much for inviting me, Mr. 
Chairman. It is a privilege to be here with Ambassador Woolsey, 
and of course my old friends Henry and David.
    I think as we focus on Iran's relationships, Syria and 
North Korea, it is important to stress that Tehran will always 
search for allies that share this animosity toward the United 
States. For Iran's rulers, the United States is an imperialist 
power determined to exploit its resources. For Iran's rulers, 
the Islamist themes are never far behind as the West is also 
seen as seeking to subjugate Muslims and impose its cultural 
template on the region. Hence, for Iran's rulers, the West is 
central to their view of you that is often laced with 
conspiracies and enduring animosity. This is a clash of 
interests as well as a clash of ideals.
    I think looking back on it now, the 2009 Iranian 
Presidential election was a watershed moment. The Islamic 
Republic at that time had a stark choice. It could move to a 
more progressive future and become part of the community of 
nations or it could choose a path of defiance. The public chose 
a certain path, the leadership chose another. The gap between 
state and society today has never been wider. Today the rulers 
of Iran's ideological preferences are not shared by a wide mass 
of the Iranian public. In a manner that I think is both 
destabilizing and dangerous, all of Iran's international 
relationships are being defined and distorted by the nuclear 
issues.
    Iran is at odds with its Gulf neighbors because of its 
nuclear aspirations. For the first time in three decades of 
animosity and antagonism there is a real possibility of a 
military clash between Iran and Israel. Washington and Tehran 
obviously seem locked in a confrontational posture that they 
cannot escape given their disagreement on the nuclear issue. 
The European states have moved beyond their policy of critical 
dialogue which was always being critical of the United States 
while having a dialogue with Iran, and they have now embraced a 
policy of sanctions and disputes with Iran again centering on 
the nuclear issue. Even the Russian Federation seems to be 
moving away from Iran as its conflict with the international 
community deepens. China of course were mentioned by others.
    I would say one of the most enduring ideological aspect of 
Islamic Republic's international relations has been its policy 
toward the Levant, the Arab East. The defining pillars of 
Iran's approach toward the Arab East is obviously its hostility 
to the state of Israel and hostility to all diplomatic efforts 
to normalize relations between Jewish states and its neighbors. 
Iran's strident ideological policy has of course been 
buttressed by strategic incentive, as its support for militant 
groups such as Hezbollah and militant states such as Syria 
gives an ability to project power in the Levant and inject its 
voice in deliberations that would otherwise be beyond its 
control. Along this path of course Iran has made common cause 
with the radical Syrian regime that shares its antipathy toward 
Israel. So long as Iran's policy toward the Arab East remains 
immured in its conflict with Israel, Tehran is unlikely to edge 
toward pragmatism and moderation in its embrace of the Assad 
regime.
    The Syrian civil war has pretty much altered Iran's 
approach to this region and to the state of Syria in a 
particular way. For a long time that particular relationship 
was more tactical. It was based on shared animosities as 
opposed to common interests, but now that has changed. The 
Syrian civil war has made Bashar Assad far more dependent on 
Iran. As the Assad dynasty veers closer to collapse, the 
Islamic Republic will do all it can to sustain its ally-turned-
client. The preservation of the Syrian regime is now Iran's 
foremost strategic objective, a Syrian regime that is obviously 
excluded from the council of Arab states and isolated in the 
international community, but nevertheless it has become a 
centerpiece of Iran's international affairs. Through dispatch 
of arms, assistance and advisors, Tehran has made a commitment 
to sustaining the Assad war machine. For the rulers of Iran, 
outside of Syria is a front-line of resistance toward the 
United States as well as forces of democratic change.
    In sum, today we face in Iran a determined and disciplined 
adversary. The Islamic Republic is committed to advancing its 
nuclear program and maintaining its allies. To address the 
threat posed by Iran we must appreciate that this is a multi-
front struggle. The Western powers have to resist not just 
Iran's surging nuclear ambitions but also its attempt to 
subvert moderate Arab states. In many ways, Syria has emerged a 
lynchpin of the new struggle for the Middle East. The collapse 
of the Assad regime could go far in undermining the forces of 
radicalism led by Iran, although I don't think we should 
exaggerate the impact of that on the Iranian state's own 
durability. It is important, however, to note that the tide of 
history is working against the Islamic Republic. A regime 
distrusted by its neighbors, disdained by its citizens poses a 
challenge that the robust Western effort can still and surely 
overcome. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Takeyh follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Yoho. Thank you, sir, and I appreciate your testimony 
there.
    Mr. Takeyh. Thank you.
    Mr. Yoho. What I would like to do now is ask you some 
questions here for a few minutes, and then we will pass this on 
to the ranking member Congressman Sherman. This is something 
that I have been following for the last 30, 35 years, the 
proliferation in the Middle East. And I always go back to the 
Founding Fathers, what George Washington said, that ``honest 
trade and commerce with all nations, true friendship with all 
nations, entanglement with none.'' And I see a policy that has 
not worked real well over the past 35 years.
    And I want to ask you, the panel, how close do you see that 
Iran is to a nuclear weapon? I have talked with Ambassador 
Bolton. He said 3 to 6 months. I have heard other people say it 
is years away. Do you guys have a feel for where we are at? The 
other question I would like to ask you is how many nuclear 
weapons, with your best estimate, do you feel are available in 
North Korea, Pakistan, the possibility of Iran? Ambassador 
Woolsey, if you would start please?
    Mr. Woolsey. As far as how close is concerned, I think I 
will yield to Henry on that type of question as I have for 
years. But my own judgment is that Iran probably could assemble 
something that passed as a nuclear weapon and have an explosion 
up in the northern desert and some radioactivity and a mushroom 
cloud within a matter of a very few months. How soon it would 
be before it was really something that you could put on a front 
end of a missile and have it perform adequately, I don't know. 
Considerably longer, I would think.
    One thing we really need to worry about is that since Iran 
has orbited a satellite, we have a situation where they may be 
able to launch and have something that goes into orbit or 
partial orbit. The Soviets had an old fractional orbital 
bombardment system, they called it, which started out heading 
south around the Pole to catch from us a direction where we 
weren't looking. It is fairly simple, you don't need a reentry 
shield if you are going to detonate in an orbit, you don't need 
a lot of things. Why would they want to do that? Once they have 
a nuclear weapon, a detonation up at a low earth orbit area--
20, 30, 40 miles--could have an absolutely, even with a very 
primitive weapon, could have an absolutely huge effect on our 
electric grid.
    Mr. Yoho. Sure.
    Mr. Woolsey. The pulse, the electromagnetic pulse of a 
nuclear weapon, rivals that of the so-called Carrington Events 
that occur about once a century: An extremely strong sun pulse 
that affects electronics and can affect them decisively. So I 
think we need to keep our eye on more than just a simple 
nuclear weapon. And the combination of the ballistic missile 
program, the launch vehicle program, and the Iranians' hard 
work on nuclear weapons, says to me that we should get busy 
shielding our electric grid.
    Mr. Yoho. Well, my concern is if they have that capability 
then they can go into the dirty bomb category and that is a 
whole different category that we don't want. I appreciate your 
input there.
    Mr. Sokolski?
    Mr. Sokolski. When this question comes up I am reminded of 
a meeting I once had with Dr. Deutch, from MIT when he was 
running the CIA, and he talked to me and my former boss and 
said, we have that much intelligence, but we have this much 
interpretation.
    Mr. Yoho. Right.
    Mr. Sokolski. I think we are on terra firma saying we are 
now in a zone where no one knows how soon. I would ask that, I 
forgot to ask. There are two or three items that are very 
brief, very brief that are cited in my testimony I would like 
to place in the record, if that is possible.
    Mr. Yoho. Please.
    Mr. Sokolski. One of them goes over, technically, how soon 
things could happen. We don't know when any longer because it 
is very close in, and the variety of views now are starting to 
move closer together. People argue very, very hard for their 
own point of view, but boy, it is getting closer and closer. 
And the differences between various estimates are not that 
broad. They now are talking about, roughly, months, not many 
years. And so at this point you have to start acting like it 
has happened, because if you wait you are really going to be 
behind the curve.
    Mr. Yoho. Yes, we don't want to do that.
    Mr. Albright, if you would. Thank you for your testimony, 
sir.
    Mr. Albright. At ISIS we spend a lot of time assessing 
these questions and we have experts in centrifuge that help us 
do it. I think the key thing though is you want to prevent Iran 
from making the decision. I think that is the fundamental goal, 
and so we don't know how long that will work. But there are 
certain dates that are defined technically that you can talk 
about.
    One is if they tried to break out now and make weapon-grade 
uranium in a sufficient quantity for a bomb it would probably 
take them a couple months, maybe even longer because sometimes 
their centrifuges don't work very well. However, as they 
increase the number of centrifuges, you reach a point where 
they could break out and the international inspectors wouldn't 
detect it before they have got enough material. And at ISIS we 
have identified that that could happen in mid-2014, and that is 
what we have called critical capability and is another date to 
keep in mind.
    You asked about North Korea. I mean we have done 
assessments on North Korea, and I agree with Henry. There is 
not a lot of information. I have visited North Korea. I have 
had discussions on their centrifuge program with North Korean 
nuclear officials. But the bottom line is just that we have to 
make a judgment, and we would assess based on what we know that 
they have enough plutonium essentially for about a dozen 
weapons, and they could have more if they had made weapon-grade 
uranium for nuclear weapons. There is uncertainties to it. It 
could be lower, it could be higher.
    But it is a substantial number.
    Mr. Yoho. I appreciate your comments. I am going to cut you 
off.
    And Dr. Takeyh, since I was a bad scorekeeper here I am 
going to let the ranking member Mr. Sherman, Congressman 
Sherman, please go ahead. You are recognized for 5 minutes.
    Mr. Sherman. One comment is China has decided on its 
behavior based upon how it sees the world. It has decided to 
subsidize North Korea, and as long as it is clear that will 
have free access to the U.S. trading system, which it abuses 
constantly, it is unlikely to change its behavior.
    Mr. Sokolski, North Korea hasn't been shy about sharing its 
technology, but often if you want something you just want to 
buy it, not buy the technology to make it yourself. Why has 
North Korea been unwilling to just sell a completed weapon to 
North Korea, Syria or others?
    Mr. Sokolski. It is afraid. Just because we think they have 
interests different than ours doesn't mean they are totally 
different than us.
    Mr. Sherman. Well, they are not afraid that Assad is going 
to bomb North Korea, but I mean I assume they are afraid that 
our reaction----
    Mr. Sokolski. Right.
    Mr. Sherman [continuing]. To the sale of a weapon would be 
far greater than our reaction to the sale of technology.
    Mr. Sokolski. Well, that is one thing but it doesn't stop 
there. Everyone likes to talk about how eager all these 
countries are to hand these things off to terrorists. Really?
    Mr. Sherman. I didn't say----
    Mr. Sokolski. No, but the point here is that there are 
risks when you sell a completed item that are not attendant to 
say, oh, it is just a reactor. Now do you know what our 
reaction was to that reactor? No pun intended. Well, we argued, 
I think, for several weeks, well, is it really related to a 
weapons program? Right?
    Mr. Sherman. I thank you for your answer. I want to go on 
to another question. Everyone in the world is convinced that 
China is generally angry with North Korea, but North Korea and 
China and especially their Communist parties have been 
cooperating for a long time. It is possible according to my 
most conspiratorially-minded staff members that this is a 
charade, a good cop-bad cop situation.
    Mr. Albright, what concessions might China extract from us 
in return for getting North Korea to be quiet, which is the 
traditional good cop-bad cop game? The good cop protects you 
from the bad cop in return for something.
    Mr. Albright. I think China is upset about North Korea's 
recent actions, but I think as you pointed out----
    Mr. Sherman. The whole world thinks that. I am asking you 
to----
    Mr. Albright. Yes. Well, China also does not want to see 
North Korea collapse and it creates a fundamental problem of 
how do you elicit Chinese cooperation on this? And I think it 
is more of a problem of how you look at that but not giving 
them----
    Mr. Sherman. You are giving me the standard information 
that is in all the press. I appreciate that.
    Mr. Albright. Well, it is also true.
    Mr. Sherman. I know. I asked you to comment on the 
possibility that it wasn't, and I guess we are going to buy 
into the traditional view. So we are going to do that and we 
are going to move on to the next question.
    You provided important information in formulating Title 3 
of CISADA which deals with transshipment. That is to say, for 
example, nuclear or useful technology is shipped to one country 
such as China really for further shipment on to Iran. And the 
administration has been unwilling to name China as, I believe, 
it is a country of transshipment concern. First, should Title 3 
be amended to target not just the transshipment or diversion of 
American goods, but the transfer of nuclear equipment no matter 
where it is made, to Iran; and second, if the administration 
won't designate China, should Congress do so?
    Mr. Albright. Yes, I think it would be good to broaden it. 
For example, you see European goods being transshipped, and so 
I think it certainly should be broadened. It should also be 
broadened to include North Korea, Syria, and other countries as 
the destination.
    Mr. Sherman. So as destination countries not as countries 
of transshipment.
    Mr. Albright. Yes, probably a bit more. And also, for 
example, I think it is very important to name China now as a 
country of diversion concern. How punishing that would be isn't 
really the issue right now. What is important is that China be 
named and that then see how they react, if they start to----
    Mr. Sherman. I think the diplomatic reaction would be 
greater than the practical reaction, but I think it would be a 
good step. Since the administration is highly unlikely to take 
it, we will see if our 435 people can agree.
    Mr. Albright. Well, and if Congress, I think there is 
certainly in my organization, I think we would be very 
sympathetic if Congress passed a law helping that designation 
along.
    Mr. Sherman. Thank you.
    Mr. Yoho. Mr. Albright, I appreciate it. Mr. Sherman, thank 
you. I would now like to recognize Mr. Chabot, chairman of the 
Subcommittee on Asia and the Pacific, for 5 minutes.
    Mr. Chabot. Thank you very much, Mr. Chairman. I will 
address this to the whole panel. We all know that Russia and 
China should be more cooperative and that it would be in their 
best interest and the best interest of the world if they would 
put more pressure on all three of these countries; they haven't 
been particularly helpful. What recommendations or what 
suggestions would any of the panel members make to how we can 
actually get their attention and get them to cooperate? What 
could we do that we are not already doing? Mr. Woolsey?
    Mr. Woolsey. I don't have a very good suggestion about 
China. Because of its economic power and military power, it is 
more impervious to diplomacy and so forth, I think, than it 
used to be. Russia has only one thing that it does, it pumps 
oil and gas. It does not manufacture anything. It doesn't do 
anything but pump oil and gas, and it uses oil and gas as 
instruments of power. I think a system in the United States 
whereby we have choice at the pump and could have gasoline, and 
let us say, not only ethanol but methanol made out of natural 
gas to drive on, the way the Chinese are starting to do, I 
think if we had something that competed with oil products so 
Russia began to see oil consumption and demand for oil going 
down and a lot of pressure on OPEC, I think that is the two-by-
four between the eyes that could get the attention of Russia.
    Mr. Chabot. Okay, Mr. Sokolski?
    Mr. Sokolski. Two ideas, one I mentioned. It doesn't take 
much to get the attention of the Chinese if any of their banks 
get contaminated as outlaws. They get very nervous even if it 
is not much money. They freeze. So that is a lever point and 
that is the reason why, I think, you can get the Chinese, not 
just the North Koreans to pay attention, if you go after the 
financial institutions that are laundering this hard currency 
that is illicitly gained by North Korea. So that is one lever.
    Two, I think to varying degrees the Russians and the 
Chinese, for different reasons, are very sensitive about being 
accused of violating human rights treaties, but they both are. 
Forced repatriation of the North Koreans who flee cannot be 
focused on too frequently, too often, too loudly in this 
chamber and outside it and it is not getting the attention it 
deserves. It is an old song, but we have got to keep singing it 
until people believe it. They, the Russians and the Chinese, 
for all kinds of deep concerns about control of their populous, 
do not want that focused on. Good. Focus on it.
    Finally, something friendly. We always want to end on an 
upbeat note. The Russians really do worry about the Chinese and 
their military. Why don't we listen more to them about that? We 
actually are concerned too. Far be it from me to make many 
recommendations about working with the Russians, but on that 
one, sign me up. That makes sense.
    Mr. Chabot. Thank you. Mr. Albright?
    Mr. Albright. I think on the North Korean situation, they 
clearly do a lot of banking business in China. China knows it, 
and I think if sanctions start targeting that I think it could 
elicit a perhaps better Chinese reaction. We will see. I mean I 
think this all has to be tested. China is a very big economic 
power, a lot of U.S. corporate interests in China. But I think 
it is time to start putting this kind of pressure on China.
    We like at ISIS the idea of the country of diversion 
concern because it is a way to start. We are just asking China 
to enforce its own laws, essentially, and we want assurances 
that our products that we are in good faith selling to Chinese 
companies do not end up in the nuclear programs or sanction 
programs of Iran and North Korea. So to us that is a start, but 
I think it may have to be followed by some more aggressive 
sanctions, and the banking sanctions or the financial sanctions 
would be very useful.
    Mr. Chabot. Thank you. Dr. Takeyh?
    Mr. Takeyh. I don't have recommendations beyond what I have 
suggested. I would just say one thing. The current negotiations 
with Iran takes place in the context of what is called 5+1, the 
five members of the Security Council and Germany, and the last 
meeting was in Kazakhstan. That particular format has, 
actually, despite limitations that it has, has I think in some 
ways served us well. When Iranian officials in these particular 
meetings behave with truculence and mendacity even the Chinese 
and Russians are compelled to actually impose pressure and 
sanctions on them.
    The reason why I say the 5+1 has served us well, because 
there is a movement now, and there is some degree of suggestion 
that perhaps the United States and Iran should move to a more 
of a bilateral discussion away from 5+1. That actually removes 
the penalty for Iranian mendacity. But so long as they get 
together in Kazakhstan and they lie in front of all the members 
of the international community, there is more of a pressure 
therefore to build sanctions on Iran and other measures of 
coercion than actually doing so in a bilateral context where 
everybody else is exempt from responsibility.
    Mr. Chabot. Thank you very much. My time is expired.
    Mr. Yoho. Thank you, sir. The Chair would like to recognize 
Ms. Meng from New York now.
    Ms. Meng. Thank you, Ambassador, and our witnesses for 
being here today. My question is, as the United States is 
growing our naval presence in the Pacific, what are some of the 
things our Navy can do to disrupt North Korean trade and 
shipping? Any and/or all?
    Mr. Albright. I mean the interdictions are critically 
important. I mean right now I think it is a little difficult to 
contemplate seizing a North Korean ship at sea. We are not sure 
of what the consequences of that would be given the tensions on 
the Korean Peninsula. But the presence is useful. My 
understanding is this pivot to Asia doesn't dramatically 
increase the actual naval presence. It is an increase, but not 
a huge increase. But it is important.
    But on the interdiction side, it is critically important to 
be able to have the mechanisms which involve intelligence or 
information gained from states to try to stop North Korea's 
shipments, and it mostly focuses on the ports or keeping a 
North Korean, deterring a ship from North Korea to be able to 
land someplace. In a sense we saw that before. They end up 
going back rather than land where the shipment could be 
interdicted.
    Mr. Sokolski. There is a reason why we don't do it on the 
open seas. It is illegal. We can't do it. It is the reason why 
we have to limit PSI mostly to port interventions and why it is 
a problem with air travel for certain kinds of small goods and 
why you are not seeing the movement of large items and why the 
cooperation is in situ. You have North Koreans living full-time 
for many years in Iran and now Iranians living full-time in 
North Korea. So it is a lot tougher than it used to be.
    Mr. Woolsey. We have had two carriers in the Persian Gulf 
area for some time. We are now going to go down to one because 
of sequestration. It is very hard to tell an area that it is 
really important, and we are here as the number one naval power 
in the world and so forth, if we can't afford to send ships to 
it. And although the tilt toward the Pacific, I think, as David 
said will help with respect to maybe keeping things there about 
where they are, or very slightly enhanced, we are paying for it 
in other parts of the world because of sequestration.
    Ms. Meng. Thank you. I yield back my time.
    Mr. Yoho. Okay. The Chair would now like to recognize Judge 
Poe, chairman of the Terrorism, Nonproliferation, and Trade 
Subcommittee, for 5 minutes.
    Mr. Poe. Thank you, Mr. Chairman. Thank you, gentlemen, for 
being here. We have three bad actors--Syria, Iran, and North 
Korea. I call them the SIK axis. That is S-I-K axis. I have to 
keep it simple, as you know I am from Texas.
    Ambassador Woolsey, I would like to know, at the end of the 
day, and all four of you, at the end of the day is Iran going 
to get nuclear weapons? Is North Korea going to get nuclear 
weapons?
    Mr. Woolsey. Well, North Korea has had three detonations, 
and the last one the people commented on the fact that it was 
small. But if, let us say, they mean to use it for 
electromagnetic pulse then you don't need more than a very few 
kilotons. What you want is gamma rays. So it is an essentially 
enhanced radiation weapon. So they may not be staying small 
because they can't build a larger weapon, they may be testing 
small because they have decided to enhance their ability to 
take out our electric grid.
    Mr. Poe. I guess I am really asking about delivery systems, 
with weapons plus delivery systems. That is really my question.
    Mr. Woolsey. Well, North Korea now has put at least one 
maybe two satellites into orbit, and if you can get around, get 
high enough and with enough lift to go into orbit, which 
doesn't take a great deal, you can reach the other side of the 
earth. And the ability to use a fractional orbital bombardment 
system to just detonate something up above the United States 
that comes at us from the south, we don't have radars pointed 
down that way, and you have a very, I think a very, serious 
situation.
    Another kind of problem is the so-called Scud in a bucket, 
which is a simple $100,000 Scud missile in a freighter pulling 
up to a couple of hundred miles off the East Coast and 
launching a nuclear weapon. If you want to be able to stop 
something like that you have got to be able to shoot it down in 
boost phase or ascent phase while it is going up. We started 
some work on those in the Reagan administration, different 
types. We have now cancelled every single American program that 
deals with intercepting ballistic missiles in the ascent phase 
or boost phase. We might well see a North Korean or Iranian 
fishing boat launch something, but there is not a damn thing we 
can do about it unless we catch it at midcourse or coming into 
a terminal phase to its target at detonation. While it is going 
up we can't shoot it down. So I would say at least, at least 
working on those two types of problems is something our 
military ought to move back into.
    Mr. Poe. All right. Dr. Sokolski?
    Mr. Sokolski. I was reflecting on the question, the answer. 
With regard to North Korea, I guess what this conversation 
reminds me of a little is the conversation I remember having in 
graduate school after the flash in the South Atlantic occurred 
in 1979, and we were still debating as graduate students, did 
Israel have nuclear weapons or not. I am not sure it is a very 
good analogy, but it suggests----
    Mr. Poe. Excuse me, sir.
    Mr. Sokolski. Yes?
    Mr. Poe. Cut to the chase. I only have a few minutes.
    Mr. Sokolski. Okay. I think you need to move on. Yes, they 
have nuclear weapons in North Korea, and yes, you are not going 
to know exactly whether they are deliverable or not, and all 
the interpretation is just guesswork.
    Mr. Poe. How about Iran?
    Mr. Sokolski. Iran----
    Mr. Poe. The day they are going to get nuclear weapons and 
capability?
    Mr. Sokolski. If we continue the way we are going, 
absolutely.
    Mr. Poe. All right. Dr. Albright?
    Mr. Albright. Yes, I am a little scared to say this after 
what Henry just said, but we do assess in North Korea, and we 
would assess that they are capable of putting a miniaturized 
warhead on a Nodong missile which has a range of about 800 
miles. We don't think they can put one on an intercontinental 
ballistic missile until they do quite a few more flight tests 
of the warhead, but they could be starting to do that and so it 
is very worrisome.
    On Iran, I think again no one knows. I mean a lot of it is 
going to be what the United States does to prevent Iran from 
getting nuclear weapons. The role of Congress and the sanctions 
to increase the pressure, the pain, helping stop Iran from 
getting the kinds of goods it needs is all very important. If 
Iran crosses, it is probably going to be a fairly crude weapon 
as probably more of a nuclear explosive device. And it would 
take several more years, probably, to have a reliable, 
deliverable nuclear weapon on a missile.
    Mr. Poe. All right, thank you.
    Mr. Takeyh. The Iranians seem determined and they have 
crossed many red lines. They are crossing further. I would just 
say one thing. And it is at times suggested that Iranians will 
stop at the breakout capacity and not cross the threshold when 
they get to it, I don't think that is true. I think if they get 
there they will cross, and they have broken every other taboo 
so that is the road we are on.
    Mr. Poe. Thank you. Thank you very much. Yield back.
    Mr. Yoho. Thank you. The Chair now would like to recognize 
Ms. Gabbard from Hawaii for 5 minutes.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here today. My questions will be mostly focused on 
North Korea. We have seen with the policies that we have had 
and how we have been dealing with North Korea so far, 
representing Hawaii obviously in the Pacific we pay very close 
attention to what is happening in North Korea, and we have seen 
this endless cycle over decades now of North Korea making 
threats, providing sanctions, providing aid over and over and 
over again. What needs to be done to break this cycle? 
Ambassador?
    Mr. Woolsey. The North Korean Government, as it is 
constituted and operates, is run by a fanatic. And negotiations 
to try to persuade them to take steps have been for us, for 25 
years anyway, playing the role of Charlie Brown trying to kick 
the football with it being pulled away every year at the last 
minute. We have been conned. We have not performed well. And 
North Korea has worked very hard while executing that classic 
diplomatic maneuver known as lying through their teeth.
    We have to decide that we are going to effectively bring 
the government down. And I think the only route to that short 
of using force ourselves is probably the financial sanctions of 
the sort that have been talked about by the chairman, and I 
would mention that Henry described especially going against 
their elites. And it is almost our last gasp on keeping them 
from being a functioning nuclear power with the same 
characteristics that they have as a government. It is one of 
the least effective series of events in the conduct of American 
foreign policy that I know of.
    Ms. Gabbard. Thank you very much. And just a follow-up to 
that. Bringing up the financial sanctions on hard currency, 
this was done a few years back but only for a short period of 
time. Mr. Sokolski, I wonder if you could address why it was 
stopped almost prematurely?
    Mr. Sokolski. I understand you were going to have 
Ambassador Hill here. I think he holds the answer to that 
question. I do not understand it. I know people on the Left and 
the Right working within the system that shook their heads when 
that happened, and I certainly on the outside shook mine. I 
think it was a mistake. It was the very smartest of what could 
be described as smart sanctions. It was making a difference. It 
was getting China's attention. It was doing damage to the 
elites that really mattered. I mean that country is run by 2 
million Communist party members. That is your problem. And I 
don't know. I think that should be something that you should 
get satisfaction on here in Congress about, and if you can't, I 
would legislate.
    Ms. Gabbard. Thank you. And Dr. Albright, since 2009, the 
United States and South Korea have basically adopted a joint 
approach including four main elements, one of which includes 
refusing to return to nuclear talks with North Korea unless 
they demonstrate that they are taking irreversible steps to 
denuclearize. Realistically, is that an option for North Korea? 
And if it is, what could possibly be offered as an incentive to 
move them in that direction?
    Mr. Albright. Yes, one of the problems is as we have 
learned with North Korea, I mean it is not a great history but 
things can get a lot worse. I mean North Koreans have been 
talking off line for a couple years they may deploy nuclear 
tipped ballistic missiles, shorter range like the Nodong and 
that is a much worse situation if they overtly deploy those. So 
I think it is very important that we create a sanctions regime 
that sticks and it should only be reduced if there is 
significant concessions on the part of North Korea.
    But I also think we have to start finding a way to talk to 
them again. And the point is two-fold. One is to start limiting 
their nuclear program. I mean not to have this reactor restart, 
not to have the light-water reactor, which is five times 
larger, they are building that turn out plutonium for weapons, 
to start shutting down parts of their centrifuge program. And I 
think the Obama administration is going to have to face that. I 
think the South Korean Government is beginning to. That the 
talks, ultimately, you want denuclearization, but in the short 
run you want concrete limits on their ability to build and 
deploy nuclear weapons.
    Ms. Gabbard. Great. Thank you. Thank you, gentlemen.
    Mr. Yoho. Thank you. Now the Chair would like to recognize 
Mr. Tom Cotton from Arkansas. You have 5 minutes, thank you.
    Mr. Cotton. Thank you. Mr. Woolsey, I would like to draw 
upon your experience as a senior leader in our intelligence 
community to explore our intelligence gathering efforts in 
North Korea. How difficult is it for the United States to 
actually collect reliable intelligence from that country?
    Mr. Woolsey. Our technical systems are extremely good, and 
over the years we have gotten a lot of information about Korea 
and its programs from those both the satellite systems and the 
electronic systems. Human intelligence espionage is 
extraordinarily difficult to conduct in a country where we 
don't have a diplomatic presence, where we don't even have any 
American commercial people. And even people from other 
countries who would help us would have a very difficult time 
learning anything about what was going on there. It is probably 
the hardest place in the world to spy in human intelligence 
terms.
    Mr. Cotton. And that would include our allies in the 
Pacific Rim, up to and including South Korea?
    Mr. Woolsey. Yes, generally. Probably our best place to go 
to find out what is going on in North Korea, and the most 
useful set of arrangements that we have got is not so much, I 
think, likely to be espionage we are running ourselves, but 
rather liaison work with the Republic of Korea, South Korean 
Government. Because people have relatives in the North, people 
have family, they have contacts of one kind or another, 
refugees get out, they know people on the inside. Probably the 
most useful way to spend time outside running all our 
electronic and technical collection is working closely with the 
Korean intelligence services and in law enforcement and other, 
anybody that has a link to a South Korean who has some link to 
the North.
    Mr. Cotton. Does the Chinese Government needs to conduct 
intelligence in North Korea or do they simply talk to North 
Korea?
    Mr. Woolsey. The Chinese spy everywhere, and I imagine they 
are worrying about North Korea as David and Henry, I think, 
everybody has pointed out. They don't want it to collapse. They 
don't want millions of refugees headed north across the Yalu. 
But by the same token, they don't want it to get into a war on 
the Peninsula, and the worst thing they could think of would be 
a war and then unification which would mean the South would be 
running a major country on China's immediate border that is an 
attractive, functioning democracy. So China doesn't have an 
easy time, and I would rather imagine that one of the top 
portfolios for the senior Chinese intelligence officials would 
be figuring out what is going on in North Korea.
    Mr. Cotton. Given that relationship, do you think that 
senior decision makers in the Chinese Government would be aware 
if the North Korean Government was going to strike South Korea 
or any U.S. interest in the area to include a conventional 
strike with the thousands of dug-in pieces of artillery across 
the DMZ?
    Mr. Woolsey. Very hard to say. They would probably work 
very hard to try to know what was going to happen, but this new 
young leader of North Korea, Trey Parker and Matt Stone did a 
marvelous job on his father, Kim Jong-il, in Team America: 
World Police. He is even more conducive to humorous treatment, 
I think, than his father was. I don't have any idea about 
anybody who knows what is going on in this guy's mind, whether 
he is blustering, whether he has a tactic in mind, whether he 
is just uncontrolled.
    Mr. Cotton. Any idea whether he is acting as the prime 
decision maker or as a cat's paw for other elements of the 
regime?
    Mr. Woolsey. I don't know. The external appearance doesn't 
make it look as if he is doing anything as a subordinate, but 
who knows what the power structure is underneath him and what 
military officers are on his side and who might want to look at 
somebody else? I don't know. That is the kind of thing that 
probably outside North Korea the only people who know much 
about might be some part of the South Korean intelligence 
service.
    Mr. Cotton. Thank you. I would agree that he is ripe for 
parody. I yield back the balance of my time.
    Mr. Yoho. Thank you, sir. The Chair now would like to 
recognize Mr. Juan Vargas from the great state of California.
    Mr. Vargas. Thank you very much, and thank you for the 
pitch for California. I appreciate that.
    Mr. Yoho. Yes, sir.
    Mr. Vargas. Especially coming from Florida. Thank you, sir. 
My first question would be this. I certainly believe that Iran 
is attempting to get a nuclear weapon in their program. Do any 
of you doubt that? Are any of you in any doubt that that is 
exactly what they are attempting to do?
    Mr. Woolsey. Well, I think it is exactly what they are 
doing. The Persians invented chess and they are good at it. And 
they have had one of their pawns being moved down steadily to 
the king's road to become converted to the most lethal piece, 
the queen, nuclear weapons, and they are distracting us by 
doing things on the other side of the chessboard. And as soon 
as we turn our attention away they figure out a way to get that 
pawn moved even closer to lethality.
    Mr. Vargas. So you have no doubt then?
    Mr. Woolsey. With everything in intelligence and foreign 
policy and so forth, there has always got to be some kind of 
shred of a doubt, but my doubt about that is about as small as 
I could imagine in this field.
    Mr. Vargas. Anybody else?
    Mr. Albright. Let me just say I would express it in a 
little more complicated way. I think they made in a sense a 
strategic decision to try to build nuclear weapons and they 
have been stopped in the past. I mean I think in 2003, between 
fear of what the United States was doing in Iraq, the 
negotiations done by the Europeans that led to the suspension 
in their enrichment program, they hurriedly shut down what 
looks to be the weaponization program. And so I think they were 
deferred at that point and I think they were on the track to 
make nuclear weapons.
    Mr. Vargas. Do you believe now that that is what they are 
attempting to----
    Mr. Albright. I think they are trying to build a 
capability, but I am not sure they have made the decision, 
because ultimately it is the decision by the Supreme Leader, 
and I think he is weighing whether he can get away with it, and 
so I think the more that is done to deter him the better. And I 
think it is very important that he understand that a military 
strike is possible if Iran goes to build nuclear weapons.
    Mr. Takeyh. If I could just say the few things about it. 
Number one, I think if you look at their strategic environment 
given the fact that there is an imbalance of conventional power 
between they and their neighbors, it makes sense for them to 
have a nuclear balance to that. Number two, I think Ambassador 
Woolsey said that we should hope for the collapse of the North 
Korean regime. I would say there are large members of the 
international community that don't want the North Korean 
Government to collapse. And why do they not want it to 
collapse? Because it has nuclear weapons.
    So Iran, with nuclear weapons, I think, will have an 
opportunity to get the international community invested in 
perpetuation of the current regime. I think you can make a case 
and a fairly cogent one that the prolongation of the Kim 
dynasty has had something to do with the fact that it has 
nuclear weapons.
    Mr. Vargas. And my other question would be this. I am from 
San Diego. We do, in fact, have two nuclear carriers there, the 
Carl Vinson and the Ronald Reagan. And you mentioned, 
Ambassador, now that we only will have one carrier in the 
region down from two, we also talked about ballistic missile 
system to be able to attack at a particular level. Those cost a 
lot of money. I agree with you on both, but what do we do 
though when we are cutting money here? What is your suggestion 
to us?
    Mr. Woolsey. Well, just to be clear, I don't know how long 
we are going to be down to one carrier in the Persian Gulf, 
whether it is a few months or a year or more. But it is just 
symbolic to me of what we are doing to ourselves by our fiscal 
situation. I am very, very worried about the state of the 
military and programs getting cancelled and people leaving that 
we need in the military. And I think that however Congress 
sorts out this fiscal situation that we are in, I really hope 
they do it in such a way that we don't end up losing a great 
deal of military capability.
    Mr. Vargas. Anyone else want to comment on that issue? And 
then lastly I would ask this. How far do you think Iran would 
go to save the Assad regime? We talk about intervention. How 
far would they go? Doctor?
    Mr. Takeyh. Sure. My guess would be they are going to 
commit considerable degree of what they are doing already at 
the intensified level. But I think there is also a notion 
pervasive within Iranian councils of power that they can still 
play around in Syria in aftermath of the collapse of the Assad 
regime. Because the collapse of the Assad regime doesn't end 
the civil war, and the idea is that they have capabilities of 
being active in ambiguous areas as you saw with Iraq and 
Afghanistan. So I think the Assad regime does not end Iran's 
involvement in Syrian affairs.
    Mr. Vargas. Thank you.
    Mr. Yoho. I am sorry, we are out of time. I am going to go 
on. The Chair now would like to recognize my colleague Randy 
Weber, from the great state, or as he refers to as the country 
of Texas. Randy, you have 5 minutes.
    Mr. Weber. All right. Well, the president of Texas will 
appreciate that. Ambassador Woolsey, you made the comment in 
earlier remarks that you think the best way to bring down the 
North Korean Government is through sanctions. If you could put 
every sanction in place that you thought was necessary, give us 
a time frame.
    Mr. Woolsey. That is very hard to do. If Congress, 
tomorrow, could follow Henry's advice and re-implement those 
banking sanctions with the stringency that they were in 
effect--for what was it, a couple years before they were, not 
even that, more like a year--and if we furthermore proposed a 
total secondary boycott of anything having to do with the North 
Korean regime. And what I mean by that is this. If any 
manufacturing facility in any country exports anything to North 
Korea, overtly or covertly, that institution would be barred 
from using American banks, trading with American companies, and 
having any economic dealings with the United States.
    Mr. Weber. All right.
    Mr. Woolsey. Make people choose. North Korea or the U.S.A.
    Mr. Weber. Okay, thank you. Yes, I think that sounds like a 
good plan to me. And secondly, I don't remember who said it 
that if they got a missile into orbit, North Korea, we would 
not see it coming from the south. Was that you, Henry? Mr. 
Sokolski?
    Mr. Woolsey. I am afraid it was probably me.
    Mr. Weber. It was you. Does NORAD not look to the south?
    Mr. Woolsey. There is a gap.
    Mr. Weber. Well, let us not tell anybody.
    Mr. Woolsey. Well, it is all out in publications and it is 
unclassified. But the United States has never defended the 
southern approaches to the U.S.A. effectively.
    Mr. Weber. Okay. Thank you, I appreciate that. And this 
would be a question for all y'all, which is plural in Texas by 
the way. Y'all is singular. Who has the most vested interest to 
know when North Korea is about to strike? I ask you first.
    Mr. Sokolski. Well, I don't know. Let us just pick one.
    Mr. Weber. Would it not be South Korea?
    Mr. Sokolski. South Korea and China.
    Mr. Weber. Okay. So you talked about not having good 
espionage available, and yet with the close relationship 
between people in South Korea and North Korea, families, it 
would seem that South Korea would be our go-to people in that 
regard. Is that too naive of thinking on my part?
    Mr. Woolsey. No, I think that is right. Our alliance with 
South Korea, it has had rocky periods here and there but 
generally it is very good and it works very well. And the close 
cooperation between the intelligence services, they even called 
their intelligence service for a time the CIA, it is also very, 
very good.
    Mr. Weber. That is what I thought. Now the question, do 
China and South Korea share Embassies?
    Mr. Sokolski. They do a lot of trade. They are quite close.
    Mr. Weber. Okay. And then I think Mr. Albright you said 
that Iran was, when my colleague Congressman Vargas asked you 
about did you think Iran was hotly pursuing weapons, I noticed 
you kind of gave it that, and you said you thought they were 
stopped in the past and you gave a couple of examples. 
Reiterate those examples of what stopped them in the past.
    Mr. Albright. Well, they started their bomb program, 
nuclear weapons program, from the information available, in the 
mid-'80s, and they had a long way to go. But by early 2000s 
they were moving along pretty well. And I think with the 
invasion in Iraq and with the international attention that was 
brought to bear on Iran, they then made cutbacks and stopped 
the nuclear weapon----
    Mr. Weber. Okay, that is what I wanted you to reiterate 
right now. Final question, who is best, who has the most vested 
interest to know about a nuclear bomb in Iran?
    Mr. Albright. Israel.
    Mr. Weber. Okay. Thank you.
    Mr. Takeyh. Can I just say one thing about when the Iranian 
nuclear program began, because I don't think it was mid-'80s. 
Hassan Rohani who was a negotiator, a high ranking Iranian 
official, has written his memoirs unfortunately only in Persia. 
And he suggests that actually the decision to resume or sustain 
the Shah's nuclear program was made while they were still in 
exile in 1979. So it actually has, the antecedents of that 
program come before Iraq's invasion of Iran, which leads me to 
believe that this is not a weapon of deterrence.
    Mr. Weber. Okay, thank you. Mr. Chairman, I yield back a 
negative balance.
    Mr. Yoho. Appreciate it. The Chair now would like to 
recognize from the Commonwealth of Virginia, Mr. Connolly.
    Mr. Connolly. Thank you so much, Mr. Chairman, and welcome 
to our panel. I am picking up in your last point, Dr. Takeyh, 
can we point to an example of a country that has seriously 
decided a priority that nuclear capability ushered in your 
full-fledged adult membership into the family of nations as a 
power that had to be respected and therefore we are proceeding? 
Is there any example we can think of in history that that 
country was persuaded to desist once having made such a 
commitment?
    Mr. Takeyh. There has been cases of nuclear reversals, 
Ukraine, for instance, that had Soviet weapons and then it gave 
them up, or some Central Asian republics, they actually gave 
them up.
    Mr. Connolly. Libya.
    Mr. Takeyh. South Africa. So there has been cases. But if 
you look at all those cases, every case is particular into 
itself. Ukraine was trying to become part of the European 
community. The South Africans had a change of regime. So in 
terms of the fact that, the incentives for Iran to have a 
nuclear weapon today are greater than the incentives for 
stopping.
    Mr. Connolly. Would you agree with that, Mr. Albright?
    Mr. Albright. I am not sure. I mean it is hard to know what 
they are thinking on these questions. And I think the outside 
does have an impact, and part of the strategy is to play for 
time. I mean I would also add Taiwan to that list where the 
U.S. intervened twice to stop their nuclear weapons program. 
And so it is possible, I think, to keep a country from building 
nuclear weapons even when it looks like that is what they are 
trying to do.
    Mr. Connolly. Where we clearly have some leverage.
    Mr. Albright. He mentioned, and not to interrupt Henry, but 
South Africa, Ray mentioned South Africa. There was in the 
sense a regime change, but it was the President changed. It 
wasn't a regime change as often thought about. But there had 
also been all these efforts to press South Africa through 
sanctions, through working with the African National Congress 
to change the nature of the decision making of the----
    Mr. Connolly. And weren't there some anomalous explosions 
we detected in----
    Mr. Albright. '79?
    Mr. Connolly. Yes.
    Mr. Albright. Yes.
    Mr. Sokolski. For what it is worth----
    Mr. Connolly. Mr. Sokolski.
    Mr. Albright. Yes. No, they had nuclear weapons so----
    Mr. Sokolski. Let me intervene, because I was on watch and 
traveled to the Ukraine and traveled to South Africa when they 
let go of these things. And you can't tell me that there wasn't 
regime change for the better that had a heck of a lot to do 
with our ability to reason with these folks on these things, 
and without that I don't think we would have seen it.
    And in the case of Taiwan, how many countries are like 
Taiwan? I mean we don't have leverage over the world like we do 
over Taiwan. I think the point about ``regime change'' that 
Ambassador Woolsey raised, which is, I guess, politically 
incorrect to say that anymore, so we talk about a transition to 
self-government, is that is is powerful, still important, 
critical.
    Mr. Connolly. Yes, and Ambassador Woolsey, I want to come 
back to your regime change because it is good advice. But it 
seems to me that the experience of Pakistan is not felicitous 
with respect to regime change. We have gone through lots of 
different governments, military, civilian, leaders who are 
executed, leaders who have had to come back from exile, leaders 
who went back into exile. Multiple regimes, but one constant 
was the pursuit of nuclear capability until they got it.
    Mr. Woolsey. That is exactly right. It is different ways in 
different circumstances. In South Africa it worked. In Libya it 
kind of worked. So it is not really clear when it is going to 
function. It is just that if you keep trying as governments go 
through changes for one reason or another, you may be able to 
somewhat limit the spread of nuclear weapons, but you are 
certainly not going to be universally successful.
    Mr. Connolly. Mr. Albright?
    Mr. Albright. I think I have to take exception. South 
Africa did not go through regime change as typically it is 
defined. In 1989, when P.W. Botha stepped down and allowed F.W. 
de Klerk to take over as President through an election, and 
that is when the decision was made. And there were many other 
factors that came into play that where South Africa was under 
tremendous pressure and wanted to then change the regime and 
allow, and then to apartheid, and then a black government.
    Mr. Sokolski. You and I should disagree off line and I will 
fill you in with what I know.
    Mr. Albright. All right. But the point I want to make 
though is that I think that regime change as a strategy to stop 
proliferation has not worked that well and we need other things 
much sooner. And I am not sure. In my experience working on 
North Korea for 20-some years that regime hangs on. I was not 
real enamored with the Agreed Framework in '94. I ended up 
supporting it, but I was told, well, don't worry. In 5 years 
that regime won't exist. We will never have to build the light-
water reactor. These regimes hang on, and your example on 
Pakistan is an excellent one. So I think our strategy needs to 
be not on regime change but on other things. If the regime 
changes through various means then it may be better, it may not 
be.
    Mr. Sokolski. How about an energy policy analogy, ``all of 
the above,'' please. Don't be blind to these possibilities.
    Mr. Yoho. Thank you. Mr. Albright, I appreciate it. We are 
out of time on this question here. What I would like to do is 
address you on a couple things and then we are going to pass 
this on to Mr. Cotton from Arkansas.
    Like I said, I watched this unroll for 30, 35 years. I have 
seen the cat and mouse game with the IAEA and Iran. Yes, we 
have, they are saying they have nuclear capabilities or they 
are developing them. No, we don't, and then it goes back and 
forth, and then some concessions are made. Sanctions are put 
on, and then they come forthright and say yes, we have done 
that, and then it starts over again. I have watched that for 35 
years. It is not working real well. We have spent a lot of 
money in foreign aid. Actually it is more foreign welfare in 
this situation. And we need to change, I think, our whole 
policy.
    And you guys have been involved in this for a long time, 
and I would love to hear your response, especially dealing with 
the situation, Mr. Woolsey. And I want to address all of you 
where you were talking about with sequestration we are bringing 
our fleets home. I have met with Navy, people in the Navy, and 
they said Iran, North Korea are watching our Navy. They know 
when we have to bring them back and when we have to refuel 
them. They know we have so many in the ports. It is a very 
dangerous situation that they can just afford to sit back and 
wait. And if they were to decide, if you say within 3 months 
that they can have a bomb capability and they go out on a Scud 
or on a boat, it is a dangerous situation and our policy has 
not worked real well. And with sequestration, yes, we would 
love not to be in this situation but we are here, and if we 
don't get some things straightened out in this country it is 
not going away real soon.
    So in lieu of that, what policy difference could we make, 
or what different policies could we come up with instead of the 
sanctions? Because the sanctions we have tried. But yet when 
you have China and Russia, and then you have Venezuela 
funneling money from Iran that keeps them afloat, how can you 
go about putting more sanctions on that when we are borrowing 
over 40 cents on a dollar? It is a very precarious situation 
for this country and for the rest of the world. I would like to 
hear just your thoughts briefly, and say 30 seconds each and 
then I am going to pass this on to Mr. Cotton. Thank you.
    Mr. Sokolski. I would have to say that you do have to have 
a long-term effort kind of like the Cold War. I have argued 
this for a long time since I worked in the Office of Net 
Assessment where we do competitive strategies. You don't want a 
hot war. That means you are not going to get a quick answer. 
And if you think longer and bigger you are going to have more 
success with all these cases. That is what we have not done 
yet.
    Mr. Albright. I think on North Korea one of the important 
things is to, in a sense, learn some lessons from the Iran 
sanctions that it is to apply the sanctions that can get you 
the result or try to get you the result you want. In this case 
you want China to cooperate and press North Korea, and so I 
think that has to be one of the goals. And to think through 
what are North Korea's vulnerabilities? I mean that is really, 
I guess the key for the Iran sanctions was to understand Iran 
better. I think we need to understand North Korea better.
    The other thing is, I think we are going to have to depend 
on South Korea to try to create some possibilities with North 
Korea. I mean right now is not the time, but I think they are 
going to have to take the, not necessarily the lead, but to try 
to get back to the point where there are limits put on the 
North Korean program, but we don't give rewards for that. That 
we want, the policy to get North Korea to stop activities is 
very important to maintain but it is going to be very hard 
right now to do that. But I think that it has got to take 
place.
    Mr. Yoho. Okay. Dr. Takeyh?
    Mr. Takeyh. I agree with Henry on his long-term approach. I 
do think that our policies of sanctions and sabotage have 
slowed down the Iranian nuclear program based upon the evidence 
that is available. I would just say one thing, this is true 
about the United States. This is true about Israel. This is 
true about all countries who have engaged in diplomatic 
dialogue with Iran. We have drawn red lines that we have not 
enforced.
    Mr. Yoho. Right.
    Mr. Takeyh. That actually gives the impression of 
irresolution which further actuates that. If you are going to 
draw a red line then we are going to have to stick to it. If we 
are not going to stick to it then we shouldn't draw it.
    Mr. Yoho. I agree. Ambassador Woolsey?
    Mr. Woolsey. There aren't any very good short term answers 
to the question. In between military force and just talking 
sanctions are about the only thing, really, that is there. But 
if you take a longer look at it, in 1945 at the end of World 
War II there were 20 democracies in the world. Today there are 
about 120 depending on how you count. An awful lot of that was 
us, not directly as we brought about democracy in Japan and 
Germany and Italy, but often indirectly. But a lot of that was 
us. And part of it was by example, part of it was standing firm 
against the Soviet Union in the Cold War. There was just 
different things that produced it. And we would be in a lot 
worse shape now with respect to the spread of nuclear weapons, 
I think, if we hadn't had that rather substantial increase in 
states which are free. But it is not the only solution. And you 
have democratic states like Pakistan which are kind of going 
crazy, six directions at the same time, and maybe their nuclear 
weapons leaking out to Taliban or Lord knows what.
    Mr. Yoho. All right. I am going to cut you off there, and I 
appreciate your input. The Chair now would like to recognize 
Mr. Connolly for 5 minutes.
    Mr. Connolly. Thank you again, Mr. Chairman. A fascinating 
panel, a fascinating discussion. I wish we could do this for 
many hours more. I don't know if you feel that way.
    But Dr. Takeyh, I heard what you said about red lines, and 
I absolutely agree with you. On the other hand, I think I am 
not sure I agree that we have set red lines and then allowed 
them to slip. I think there is a difference between Israel and 
the United States and what our red line is and what their red 
line is. And within some reasonable boundary, I think that 
ambiguity can be useful because the other side has to now 
calculate who is going to do what. But if, however, you are 
right that we absolutely, clearly, allow a red line to go past 
us, then I think we dissipate credibility and damage actually 
the end goal. Comment?
    Mr. Takeyh. No, I am not disagreeing with you, Congressman. 
For instance, look at the Fordo facility, the facility that is 
in Iran, hard and in the mountains. Our position used to be 
that Fordo has to be shuttered. Now our position is the 
activities in Fordo have to be suspended. That is not 
shuttered. Maybe if it was too hard to shutter Fordo then we 
shouldn't have asked for it.
    Mr. Connolly. Yes. It reminds me a little bit of Potter 
Stewart, Justice Stewart on the Supreme Court who once said 
with respect to the definition of that which was obscene, I 
know it when I see it. And maybe we will know the red line when 
we see it. I don't know, but I take your point.
    Yes, Mr. Sokolski?
    Mr. Sokolski. Mr. Takeyh is absolutely spot on correct. He 
could go on with many more examples though. We once opposed 
opening up Bushehr. Oh, we don't anymore. They have a ``right'' 
to that now. So we do not only not hold to the red lines we 
set, we move them, and I think that is what you are referring 
to----
    Mr. Connolly. Yes.
    Mr. Sokolski [continuing]. And you are nodding, so yes.
    Mr. Connolly. Okay, fair enough. Great. I want to go back 
to the question of Iran and Syria. Lots of stuff going on in 
Iran right now. How far do you think, and I think, Mr. 
Albright, you were commenting on this in response to 
Congressman Vargas. How far do you think Iran is willing to go? 
How much credibility, how much by way of resources is Iran 
willing to expend in either shoring up the Assad regime or in 
making sure that its interests are protected to Syria as 
opposed to the Assad regime?
    Mr. Albright. Ray was talking about that.
    Mr. Connolly. Oh, you were talking about that, okay. Dr. 
Takeyh?
    Mr. Takeyh. In some ways this is an unusual situation for 
the Iranians because this is one of the first time they are 
looking at a situation where a critical strategic ally faces 
the possibility of extinction. So we don't have too many 
historical precedents about how far they will go. So far they 
have made the determination that they will give financial 
assets, military advice, technological transfers and all kinds 
of stuff.
    But what I wanted to suggest that there is an increasing 
perception in the Iranian power circles as far as we can tell 
that they seem to think they can nevertheless function and 
advance their interests in post-Assad Syria. Because post-Assad 
Syria is still going to be a state which is going to be at war 
with itself, different confessional and different sectarian 
groups. And it is such an ambiguous situation Iranians have 
experience of dealing whether it is in southern Lebanon, 
whether it is Iraq, whether in Afghanistan, they seem to do 
well in terms of finding allies and even clients in situations 
like this.
    I don't know how far they would go in terms of, my guess is 
they are going to the limit in terms of financial transfer and 
that stuff, not necessarily effective deployment of their own 
forces. But I should say for the Islamic Republic this is an 
unprecedented situation and so this is going to be case law.
    Mr. Connolly. And I have 37 seconds, so Mr. Ambassador, the 
same question in a sense about China and Korea. Seems to be 
some cracks in the cement around feet in Beijing with respect 
to the recent actions of Pyongyang. How much credence should we 
give to the seeming growing, well, the seeming distance between 
the new leadership in Beijing and the new leadership in 
Pyongyang?
    Mr. Woolsey. I rather imagine that the Chinese are worried 
enough that they are starting to work very closely with the 
South Koreans, and we may almost be kind of in a rivalry with 
China over who can work more closely with the South Koreans 
these days. I think the Chinese would very much like to have 
anybody, if anybody is going to make people mad and much less 
use force, they would much rather it be us than them. And I 
think it is pretty unlikely that they are seriously considering 
trying to effectively constrain North Korea in the way that 
they might have to to get the job done. But it is an odd 
situation and it is one that is very difficult to predict how 
it is going to come out. I have rarely seen Asia in quite such 
a state of confusion.
    Mr. Connolly. And Mr. Chairman, if I may though, how much 
credence though should we, or are we reading too much in some 
of the statements from the new Chinese leadership with respect, 
I mean they made all the veiled references to the leadership in 
Pyongyang at least inferentially in negative terms.
    Mr. Woolsey. At least what, deferentially?
    Mr. Connolly. Inferentially. I mean they didn't by name 
say--no. But they clearly said countries have to behave in a 
certain way and the inference being they are not.
    Mr. Woolsey. I think the new Chinese leader seems to have a 
bit more taste for the military and taking sort of a strong 
posture in getting along with them than may have been the case 
in recent history in China. I think China is probably worried 
and they are not quite sure what to do other than to just kind 
of look strong and try to figure out who knows what. I don't 
think they are in a hugely better shape than we are.
    Mr. Albright. I think we have to careful. I agree with what 
the Ambassador said. But there are two things to remember. The 
President of China made the statement, we thought it was North 
Korea. The Chinese Government, I believe, issued a statement a 
couple days later saying no, they were talking about the United 
States. And then one of the articles that has been widely cited 
is showing this crack. The guy was removed from his job. So I 
think the U.S. challenge to get China to start playing a more 
constructive role is still front and center.
    Mr. Connolly. Thank you, Mr. Chairman.
    Mr. Cotton [presiding]. As the chair, I think I will 
recognize myself for 5 minutes. We spoke earlier about our 
efforts to look into North Korea. I want to maybe turn the 
mirror now on ourselves and evaluate our response not 
necessarily over the last 4 years or the last 30 years with 
North Korea, but maybe the last 60 days, and get your opinion 
as a panel on how the President and the administration has 
responded on the positive side.
    I see that in general it has not rushed to prostrate itself 
the way the American Government has sometimes in the past. The 
introduction of the B-2 bomber into annual exercises, the 
forward deployment of F-22 fighters to South Korea. On the less 
valuable side, I have seen a cancelled ballistic missile tests 
from our West Coast, General Thurman, the commander in South 
Korean forces, a decision not to return here for a previously 
scheduled testimony. Maybe most troubling, some reporting by 
David Sanger in the New York Times a few days ago, with that 
senior administration official, said the United States 
Government finds itself in the unusual role of trying to 
restrain the South Korean Government and any attack by North 
Korea such as artillery shells against our forces or South 
Korean territory, or ships are being met with a more 
proportional response rather than overwhelming response.
    If I could just go down the panel and get your assessment 
of how the administration has handled the last, say 60 days.
    Mr. Woolsey. I guess I would say no huge errors, but when 
dealing with somebody like Kim Jong-un, or if there is anybody 
like him, to sort of start out from a firm posture and then to 
kind of back down to one that is less so is frequently the 
worst thing to do. It is not called appeasement anymore, but 
that is what appeasement meant in 1938 before it took on its 
negative connotation was basically accommodating, 
accommodating, accommodating. And one wants to be able to talk. 
I have spent a lot of time in diplomatic negotiations and there 
are sometimes things that you can usefully do even between 
enemies in a crisis. But to start out and transition now to 
look like you are pulling back, I don't think is wise.
    Mr. Cotton. Mr. Sokolski?
    Mr. Sokolski. I was in Korea and was able to talk with 
officials both in South Korea and in our Embassy in 2010. And 
the unanimous view of all parties political and official was 
that when the United States found out about the sinking of the 
corvette and the shelling of the island, it instructed the 
South Koreans more or less to be quiet, to take it. I think 
what is regrettable about what has happened in the last month 
isn't so much what the President has done, which I think, 
actually, is appropriate, but that it had to be so public. I 
think it had to be so public because of what happened in 2010. 
And then because they were getting criticized for overplaying 
their hand, they, then, publicly said, well, we will restrain 
ourselves.
    By the way, we are in a tricky situation, I understand, 
because the South Korean military is very eager to say that 
they will go north. You do not want to get sucked into a war 
easily, so there is a real problem here. But I think the cycle 
of concern about how we look is driving too much of what we are 
doing, and it doesn't look good when you do that. I think that 
is the point.
    Mr. Cotton. Mr. Albright?
    Mr. Albright. Yes. No, I won't pretend to be an expert on 
military strategy with North Korea, but I don't think it was 
done as well as it could have been. I mean, I do know in 
working with North Korea over many years that they are very 
worried about U.S. military strength. They think they are going 
to be attacked. And some of it is propaganda to keep the 
regime, or the population under control, but a lot of it they 
really believe.
    And I think the public actions with the B-2 bomber and 
other actions guaranteed a massive escalation on the part of 
the North Koreans, and they are never going to let us have the 
last word. And so I think it could have been done differently. 
And then cancelling the ballistic missile test, I kind of agree 
it is a sign of weakness. Now maybe that can be turned in, or 
what is the phrase? Lemons can be turned into lemonade somehow. 
But I think it could have been done better.
    And we have to always remember that we are dealing with a 
regime that has military people that are incredibly isolated, 
never left that country, see us in an extremely paranoid way, 
and see us as incredibly powerful and they are never going to 
show weakness. And so you have a very tricky situation. And I 
think at the same time, I don't think South Korea is going to 
take another attack. I think they will respond. I think the 
past President made that clear. I think the current one has 
made it clear. And so I think the United States has to work 
carefully with South Korea to make sure that if North Korea 
does attack that there is, I guess the term would be a 
proportionate response that they hopefully will not escalate 
into a war.
    Mr. Cotton. Dr. Takeyh, in brief?
    Mr. Takeyh. As you mentioned, Congressman, with the Korean 
crisis there is always a cycle. There is a North Korean 
bellicosity that is usually followed by diplomacy and rewards 
and so forth. I think the administration has been measured in 
its response not to follow that particular cycle. In a 
situation like this you have a task of deterring your adversary 
and restraining your ally. What I don't know is how this crisis 
ends, because at some point North Korea has to be given a path 
out of the predicament of its own making and that may at some 
point call for introduction of diplomacy into this.
    Mr. Cotton. Thank you. Briefly.
    Mr. Albright. Yes, don't underestimate the military's 
influence that they don't want to negotiate. I mean we are in a 
very tricky situation, and I think that it is not necessarily 
the old cycle.
    Mr. Cotton. Thank you all. I will now turn to the gentleman 
from California for 5 minutes.
    Mr. Rohrabacher. Thank you very much. Mr. Albright, let me 
just note that if they--yes, they are not going to show a sign, 
what they consider to be a sign of weakness to us by reaching 
out or trying to find a peaceful way of interacting with us. 
That they see that as a sign of weakness on their part. But 
they also see when we are doing that as a sign of weakness, 
isn't that true? So it is not just them saying oh, I am not 
going to show a sign of weakness, when we try to do the same 
thing they think we are being weak.
    Well, so what does that mean about our policy for the last 
20 years dealing with North Korea? Have we not been subsidizing 
North Korea to the tune of billions of dollars between 
ourselves and our friends in South Korea? Haven't we been 
providing them with billions of dollars? Did they see that as a 
sign of friendship or of weakness?
    Mr. Albright. Yes, but we have gotten quite a bit for it. I 
mean their program was constrained for years, and so I can tell 
you it can get a lot worse. I mean if they start deploying 
nuclear tipped ballistic missiles----
    Mr. Rohrabacher. Yes, we got a lot out of it. We are now in 
a position where you have a North Korean regime that may be a 
nuclear armed regime soon. We didn't get a lot out of that at 
all. That regime may have fallen had we not provided a subsidy 
in oil and food so they could use their own money on weapons.
    Before I had to leave for other meetings, Ambassador 
Woolsey was mentioning other alternatives of how Ronald Reagan 
approached the Soviet Union which had nuclear weapons, which 
was a threat, which was involved with aggressive actions toward 
us, and he said, ``tear down the wall.'' Well, I was one of 
Ronald Reagan's speechwriters as most people know, and Ronald 
Reagan was the one responsible for those lines, I will tell you 
that much, because all of his senior advisors didn't want him 
to say it, except his speechwriters of course. And had Ronald 
Reagan not done that it would have been a sign of weakness, and 
instead of having the wall come down and the Soviet Union 
collapse without an armed conflict we might have actually 
perpetuated Soviet strength.
    And during that same time, Reagan was also, as Ambassador 
Woolsey mentioned, supporting those people within their society 
who were trying to regime change from within. Whether it was 
the Afghans fighting the Soviet Union, whether it was Lech 
Walesa, whether it was the Contras down in Nicaragua, we were 
undermining the Soviet military regime that threatened us by 
supporting the enemy of our enemies.
    Instead, in Korea----
    Mr. Albright. But I think all that has been done on North 
Korea. I think all that has been done in North Korea.
    Mr. Rohrabacher. Instead in Korea, our approach has been to 
subsidize this wacko, lunatic regime that now threatens the 
world with nuclear weapons.
    Mr. Albright. All right. If you are talking about the 
Sunshine Policy of the South Korean Government----
    Mr. Rohrabacher. Which we encouraged.
    Mr. Albright [continuing]. That was a tremendous subsidy, 
and I think the South Korean Government is unlikely to pursue 
that path again.
    Mr. Rohrabacher. Well, it is too late now. We have already 
given them the billions of dollars they needed so that they 
could invest in their nuclear program without having to deny 
their people food.
    Mr. Albright. Yes, but back to the early----
    Mr. Rohrabacher. I have only got 1 minute more.
    Mr. Albright. I don't think the regime would have collapsed 
in the early '90s if there had not been something like the 
Agreed Framework.
    Mr. Rohrabacher. Well, unless we came in and decided, like 
Ronald Reagan did, to support people who are going to try to 
overthrow that regime.
    Over to Iran, let us just note we haven't done anything 
with Iran either. I mean we have been making our gestures, this 
administration in particular made wonderful friendship 
gestures. But over these last years instead of supporting those 
people, whether they were the Iranian students who were out 
protesting when we just held them at bay and said, we don't 
have anything to do with you, or the Azeris or the Baluch or a 
number of these other groups that are there, Turkmen who are 
part of that country, we haven't done anything to help the 
opposition to the mullahs. So how can we expect that the 
mullahs are going to look at that as a sign of friendship?
    Again, they are seeing this, all of these dictators see 
these efforts on our part as a sign of weakness. And when we 
allow, for example, we make this big deal about what, we are 
having this economic boycott. We can't buy oil from Iran. And 
then we give waivers to everybody in the world to go ahead and 
buy your oil, which I think we just gave it to China, how do 
you expect them to take us seriously? The mullahs think we are 
weak because we are not siding with their enemies. We are not 
siding, and their enemies happen to be the friends of democracy 
and the friends of the United States.
    So we have gone down the wrong road with Iran, and now they 
are on the edge of threatening us with nuclear weapons. We 
subsidized the North Korean nut cases, and now we are on the 
verge of having them threaten us with nuclear weapons as well. 
So much for trying to curry favor with dictators.
    Mr. Woolsey, Ambassador?
    Mr. Woolsey. One quick point, Congressman, I agree to a 
great degree with what you said. There are indirect effects too 
of the kind, I would call it weakness that we have exhibited 
toward Iran because it makes it easier for other countries, in 
this case it is often Russia, to lean on small countries in the 
region because they don't think we are going to stand up for 
them. Azerbaijan as an example. Bulgaria as an example. Both of 
those countries have a number of people who would like to work 
with the United States, but the Russians are scaring them. And 
the Russians take heart from the fact that we are not standing 
firmly against the Iranians, I think.
    Mr. Rohrabacher. Well, thank you very much, Mr. Chairman.
    Mr. Cotton. Thank you.
    Mr. Rohrabacher. Mr. Chairman, I ask unanimous consent to 
give Mr. Albright the last word.
    Mr. Albright. I am not going to challenge what you are 
saying, I mean you have done this a long time. But I would add 
though that we could have been facing the situation we are 
facing now 20 years ago with North Korea. So I think in my own 
experience delay is worth something, but now we are paying, we 
have to deal with it.
    Mr. Cotton. Mr. Albright shows his wisdom by not 
challenging what the gentleman from California is saying.
    The gentleman from Texas is recognized for 5 minutes.
    Mr. Weber. And also since he is honored to give the last 
word proves he is probably not married.
    Four quick questions, I hope. Ambassador Woolsey, you said 
sanction all the banks, all the companies doing business with 
North Korea to bring the most pain to them. Do we know a list 
of their trading partners, or do you know a list of their 
trading partners in order?
    Mr. Woolsey. I don't personally, Congressman, but we have 
got pretty good information, I think.
    Mr. Weber. But we would have that and so----
    Mr. Woolsey. The Treasury, probably more than the CIA, it 
is the Treasury.
    Mr. Weber. Okay. And what length of time have we had those 
sanctions on Iran?
    Mr. Woolsey. Oh, we haven't done anything close to that 
with Iran.
    Mr. Weber. Okay, so it is safe to say that probably ought 
to be a two-pronged attack, in your opinion?
    Mr. Woolsey. Well, I mean if we didn't have the nuclear 
weapons and ballistic missile problem, we have got one of the 
countries that has ballistic missiles and nuclear weapons, and 
we have got another one that has ballistic missiles and is very 
close to having a nuclear weapon. So I am afraid, yes----
    Mr. Weber. No, I get it. But my specific question is what 
would the impact be on trade? In other words, that is going to 
affect businesses in the United States. Has that been 
calculated?
    Mr. Woolsey. I don't know that it has.
    Mr. Weber. Who would calculate that?
    Mr. Woolsey. If it has it is probably the Treasury. The 
Treasury on all of this business about sanctions and the like, 
the Treasury over the course of the last 6 or 8 years has built 
up a really extraordinary expertise. They are smart and very 
able people.
    Mr. Weber. Okay. And then, Mr. Albright, I am intrigued by 
your statement when you said that if North Korea does attack 
South Korea that there had to be a proportionate response but 
that it should not lead--did you say you didn't think it should 
lead to war, or wouldn't lead to war? What did you say?
    Mr. Albright. I would hope it would not lead to war. I 
think it is risky.
    Mr. Weber. I think that is naive. I mean----
    Mr. Albright. You think it will lead to war?
    Mr. Weber. Well, if I was South Korea and I had been hit 
that number of times, I would hope they would go kick their--I 
mean, I am sorry. Yes, I would think it would lead to war.
    Mr. Albright. Yes, they would be very vulnerable though, 
very vulnerable.
    Mr. Weber. And if you want to call it an excuse, it would 
be a great reason, a justifiable reason for them to go right at 
them. And I would hope the United States would back them up to 
the hilt.
    Mr. Albright. Then this is a question for the United 
States. I mean South Korea has to worry about being hit with a 
nuclear weapon. What is the United States going to do?
    Mr. Weber. No, I understand. Mr. Sokolski?
    Mr. Sokolski. We just as a country authorized the 
development and export of long-range strike systems for South 
Korea. Now, the export is kind of hard to argue against, but we 
also authorized them to develop missiles that they are working 
on to do precisely the kinds of strikes against command and 
control centers that, as I think you are rightly pointing out, 
have consequences. And if they proceed unassociated with our 
efforts it could cause trouble. I think that is the reason why 
everything we do to support South Korea needs to embrace them 
even closer and integrate them more in what we can do with them 
for their defense, because otherwise you could really get into 
a----
    Mr. Weber. No, I understand. And fourth and final question. 
I think, Mr. Sokolski, you said to Mr. Albright earlier that 
you all were just going to have to disagree but you were going 
to do it off line. I want the time and date of that so I can be 
there.
    Mr. Sokolski. How should I put it? My view is informed by 
the experience of negotiating with the Ukrainian authorities 
and the South Africans. And I can tell you sure as day they had 
their eye on a change in government and they were making 
calculations that were right down to the nickel with regard to 
the implications of who was going to take control and what 
financially that would mean if they did or didn't do our 
bidding.
    Mr. Weber. No, I kind of gathered that.
    Mr. Albright. Well, okay, but that is not regime change. So 
I mean there may not be as much----
    Mr. Weber. Okay, what we are having here is a disagreement, 
ladies and gentlemen. No, I get that.
    Mr. Sokolski. We are into definitional issues here.
    Mr. Weber. No, so we will do that off line. Thank you. I 
yield back, Mr. Chairman.
    Mr. Cotton. Thank you. Recognize the gentleman from Florida 
for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Just a couple of 
questions. Thanks to the witnesses for sticking this out as we 
came and went and came back.
    Dr. Takeyh, can we chat about the elections in Iran, 
whether they mean anything, what we can expect to see in them?
    Mr. Takeyh. Sure. Elections in Iran tend to be unfair, 
uncompetitive and unpredictable. So there is a whole slate of 
candidates running. I think the Supreme Leader will have three 
criteria for who will become the next President of Iran. Number 
one, he has to firmly believe in the ideology of the system. 
Number two, he has to be submissive to the authority of the 
Supreme Leader. And number three, he has to demonstrate some 
administrative competence. The third is less relevant than one 
and two, but I think with experience that he has for the past 8 
years has put some premium on administrative efficiency.
    Mr. Deutch. And Ambassador Woolsey, let us just go back to 
what you said at the very beginning during the start of your 
testimony. In talking about Iran, and you spoke briefly about 
Iran sanctions then you talked about other things that we 
should be doing to really cause the regime to, that ultimately 
would either cause the regime to actually make concessions on 
the nuclear program or cause the regime to fail which is 
something in the nature of an all-out embargo. Is that right?
    Mr. Woolsey. Yes, I think that we have not taken anywhere 
near the kind of stance in support of the Iranian people that 
they deserve and that they clearly wanted in '09 when they had 
the election and took to the streets in huge numbers and we 
didn't support them at all. I think we need more than a dash of 
Margaret Thatcher and Ronald Reagan and Pope John II who 
together, the three of them, did so much to bring the Cold War 
to a positive conclusion. And one of the things they did was 
they didn't let up on criticizing the Communist system and the 
Communist authorities.
    Natan Sharansky I know slightly, and he was in the Gulag 
when Reagan said, ``Mr. Gorbachev, tear down this wall,'' and 
he said the word of that spread like wildfire throughout the 
Gulag through these various ways they have of communicating 
with one another, tapping on pipes and so forth, and he said he 
still remembers when he heard it. And his response was, we are 
going to win.
    That is what we have got to do. We have got to convince the 
people of Iran that we are on their side not on the side of the 
Revolutionary Guards who own an awful lot and control a lot, 
sort of like Nazi Germany being run by the SS. And I think we 
need to show people and let people know what side we are on 
with respect to Iran, and we haven't really done that very 
well, I think, really since the fall of the Shah and the coming 
into power of Khomeini.
    Mr. Deutch. Well, do you think given that there is an 
ongoing discussion about maintaining a viable military threat, 
yet there is very little discussion about instituting what 
would really be the most significant economic threat, which is 
an embargo, so that is something that ought to be spoken of 
more directly as a real alternative that may be implemented 
soon.
    Mr. Woolsey. I think so. I mean I would be slow definitely 
to put boots on the ground over there, but in terms of using 
economic power, using embargoes, using sanctions, taking the 
gloves off completely with respect to those, doing everything 
we can to bring down their economy, I think that is something 
we can at least make a very good effort at and could use as 
part of the rallying call, I think, to the American people and 
people who are oppressed by Iran in the region and otherwise.
    Mr. Deutch. Well, thanks. It has been a long day so I will 
yield back. Thank you.
    Mr. Cotton. I want to thank all four of our witnesses for 
coming today. Thank you for your service to your country over 
the span of a very distinguished career for each of you. This 
hearing is now adjourned.
    [Whereupon, at 4:54 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <F-dash>\<Hoarfrost><star><star><Rx><box><careof><star><box><natural> 
                      stat<box><acctof><box><Rx>t\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    <F-dash>\<Hoarfrost><pound><loz><pound><script-l>s<loz><careof> 
                     <F-dash><func.-of><Register>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
[Note: The following material submitted for the record by Mr. Henry D. 
Sokolski is not reprinted here but can be found in committee records: 
Report by Gregory S. Jones, March 19, 2013, entitled ``Iran's Rapid 
Expansion of its Enrichment Facilities Continues as the U.S. Concedes 
That Iran Is Getting `Closer and Closer' to Having Nuclear Weapons: 
Centrifuge Enrichment and the IAEA February 21, 2013 Safeguards 
Update.'']

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
